Audit Report




OIG-10-042
SAFETY AND SOUNDNESS: Material Loss Review of
BankUnited, FSB
June 22, 2010




Office of
Inspector General
Department of the Treasury
 
Contents


Audit Report...............................................................................................           1

    Results in Brief ..........................................................................................       2

    Causes of BankUnited’s Failure ...................................................................               4
         High Concentration in Option ARMs ...................................................                       4
         Ineffective Controls Over High Option ARM Loan Concentration ............                                   7
         Decline in BankUnited’s Real Estate Markets........................................                        10

    OTS’s Supervision of BankUnited. ...............................................................                11
         Summary of OTS’s BankUnited Supervisory Actions .............................                              11
         OTS Did Not Impose Limits on BankUnited’s Significant Growth
           and High-Risk Concentration of Option ARM Loans ............................                            13
         OTS Did Not Adequately Assess BankUnited’s Underwriting Practices ....                                    15
         OTS Did Not Detect BankUnited’s Improper Risk-Weighting of its Option
           ARM Portfolio in a Timely Manner ....................................................                    16
         OTS Directed BankUnited To Backdate A Capital Contribution ...............                                 17
         As Conditions Swiftly Deteriorated at BankUnited, OTS’s Use of PCA and
           Enforcement Authorities Was Reasonable .........................................                         18
         OTS Lessons Learned Review ............................................................                    20

    Recommendations .....................................................................................           23

Appendices

    Appendix     1:      Objectives, Scope, and Methodology ....................................                    26
    Appendix     2:      Background........................................................................         29
    Appendix     3:      Glossary ...........................................................................       33
    Appendix     4:      Chronology of Significant Events ..........................................                40
    Appendix     5:      OTS Examinations and Enforcement Actions ..........................                        47
    Appendix     6:      Prior OIG Material Loss Review Recommendations ..................                          65
    Appendix     7:      Management Response .......................................................                69
    Appendix     8:      Major Contributors to This Report .........................................                71
    Appendix     9:      Report Distribution ..............................................................         72

Abbreviations

    ALLL                 allowance for loan and lease losses
    BFC                  BankUnited Financial Corporation
    BSA                  Bank Secrecy Act


                         Material Loss Review of BankUnited, FSB (OIG-10-042)                                     Page i
C&D              cease and desist order
CEO              chief executive officer
Fannie Mae       Federal National Mortgage Association
FDIC             Federal Deposit Insurance Corporation
FICO             Fair Isaac Corporation
FHLB             Federal Home Loan Bank
IT               information technology
MOU              memorandum of understanding
MRBA             matter requiring board attention
option ARM       option adjustable rate mortgage
OIG              Treasury Office of Inspector General
OTS              Office of Thrift Supervision
PCA              prompt corrective action
RCBAP            residential condominium building association policy
REO              real estate owned
ROE              report of examination
SAR              suspicious activity report
TFR              thrift financial report




             Material Loss Review of BankUnited, FSB (OIG-10-042)      Page ii
                                                                                         Audit
OIG
The Department of the Treasury
                                                                                         Report
Office of Inspector General




                        June 22, 2010

                        John E. Bowman, Acting Director
                        Office of Thrift Supervision

                        This report presents the results of our material loss review of the
                        failure of BankUnited, FSB (BankUnited), of Coral Gables, Florida, and
                        of the Office of Thrift Supervision’s (OTS) supervision of the
                        institution. OTS closed BankUnited and appointed the Federal Deposit
                        Insurance Corporation (FDIC) as receiver on May 21, 2009. Section
                        38(k) of the Federal Deposit Insurance Act mandated this review
                        because of the magnitude of BankUnited’s estimated loss to the
                        Deposit Insurance Fund. 1 As of March 8, 2010, FDIC estimated that
                        the loss would be $4.9 billion. FDIC also estimated that BankUnited’s
                        failure resulted in a loss of $25.7 million to its Transaction Account
                        Guarantee Program.

                        Our objectives were to determine the causes of BankUnited’s failure;
                        assess OTS’s supervision of BankUnited, including implementation of
                        the prompt corrective action (PCA) provisions of section 38; and make
                        recommendations for preventing such a loss in the future. To
                        accomplish these objectives, we reviewed the supervisory files and
                        interviewed officials at OTS and FDIC. We conducted our fieldwork
                        from July 2009 through November 2009. Appendix 1 contains a more
                        detailed description of our objectives, scope, and methodology.

                        We also include several other appendices to this report. Appendix 2
                        contains background information on BankUnited’s history and OTS’s
                        supervision processes. Appendix 3 is a glossary of terms used in this
                        report. These terms are underlined in the body of the report and, in the
                        electronic version of the report on our web site, hyperlinked to the
                        glossary. Appendix 4 contains a chronology of significant events
                        related to BankUnited’s history and OTS’s supervision of the

1
  Section 38(k) defines a loss as material if it exceeds the greater of $25 million or 2 percent of the
institution’s total assets.



                        Material Loss Review of BankUnited, FSB (OIG-10-042)                         Page 1
               institution. Appendix 5 summarizes results of OTS examinations of
               BankUnited from August 2003 until its closure in May 2009, including
               enforcement actions taken against BankUnited by OTS. Appendix 6
               contains Treasury Office of Inspector General (OIG) recommendations
               from material loss reviews of failed OTS-regulated institutions
               completed since April 2008.


Results in Brief
               The primary cause of BankUnited’s failure was a high-risk growth
               strategy with excessive concentration in option adjustable-rate
               mortgages (option ARM) without implementing adequate controls to
               manage the associated risks. Option ARMs are high-risk loans that
               feature, among other things, the possibility of negative amortization
               and payment shock as rates reset. Deficient underwriting and credit
               administration, combined with the rapid decline in the real estate
               market, resulted in the deterioration of the thrift’s asset quality,
               including a substantial volume of problem loans and significant loan
               losses. In turn, these loan losses significantly diminished earnings and
               resulted in negative capital, and ultimately, the failure of BankUnited. 

               Regarding supervision, OTS did not impose limits or restrict BankUnited’s
               concentration and growth in high-risk option ARMs. In addition, OTS did
               not adequately assess BankUnited’s underwriting practices, partly due to
               using inappropriate risk indicators to measure the performance of the loan
               portfolio and relying on the thrift’s mitigating controls that proved
               inadequate. Furthermore, OTS did not identify or address the thrift’s
               inaccurate risk-weighting of its loan assets. Inaccurate risk-weighting can
               have the effect of misstating capital ratios as it did in the case of
               BankUnited. We also found that OTS improperly directed the thrift to
               backdate a capital infusion from its holding company. As BankUnited
               reported falling capital levels, we concluded that OTS used its authority
               under PCA in a timely manner but those actions did not prevent
               BankUnited’s failure or a material loss to the insurance fund.

               During our material loss review, OTS completed an internal failed thrift
               review of BankUnited which concluded, similar to our material loss
               review, that BankUnited’s deficient underwriting increased the credit risk
               of its option ARM portfolio and contributed to its failure. The internal
               review also found that there were objectionable practices occurring at
               BankUnited in 2004, 2005, and 2006 that were not timely addressed by


               Material Loss Review of BankUnited, FSB (OIG-10-042)             Page 2
supervisory staff. The review recommended OTS emphasize to
supervisory staff the importance of timely identification of unsafe and
unsound practices in general, as well as a cautious supervisory approach
when evaluating the risks of new products.

We have reported on excessive concentrations in option ARMs and a
lack of strong supervisory response in a number of our material loss
reviews during the current crisis. OTS issued guidance to thrifts in
July 2009 regarding asset and liability concentrations and related risk
management practices. The guidance reemphasizes important risk
management practices and encourages financial institutions to revisit
existing concentration policies in light of the current economic
environment. While we believe the guidance is better than what had
been available to thrifts previously, it is too soon to tell whether the
guidance will be effective at controlling risky concentrations going
forward. Furthermore, there has been no recent update to examiner
procedures that would identify a trigger point where concentrations
are excessive from a safety and soundness perspective nor provide
examiners a range of responses to address excessive concentrations.
This is an area we believe requires continued OTS management action.

As a final note, we referred the matters involving BankUnited’s
financial reporting to the Treasury Inspector General Office of
Investigations.

Recommendations

We are recommending that the OTS (1) implement the
recommendations from its internal failed thrift review of BankUnited
and (2) caution examiners to pay particular attention to the risk-
weighting of option ARMs and, going forward, ensure that decisions
by thrifts to risk-weight these loans at anything other than 100
percent are adequately justified. In this regard, OTS should issue
clarifying guidance to thrifts and examiners as to those option ARMs
that qualify for risk-weighting other than 100 percent. Due to the
significant impact the clarifying guidance may have on thrift financial
reporting, the clarifying guidance should be issued in an expeditious
manner.




Material Loss Review of BankUnited, FSB (OIG-10-042)            Page 3
              Management Response

              OTS concurred with the recommendations. As actions taken, it cited
              previously issued guidance to thrifts and examiners on concentrations
              and guidance to examiners on identifying risks with new products and
              other new activities. OTS is currently drafting clarifying guidance for
              issuance to the industry and examiners on the risk-weighting of option
              ARMs and plans to issue the guidance by July 31, 2010. OTS’s
              response is provided as appendix 7.

              OIG Comment

              Overall, we consider OTS’s actions, taken and planned, to be
              responsive to our recommendations. However, it is too early to
              determine the effectiveness of the recent issuances. We also plan to
              assess the clarifying guidance for risk-weighting option ARMs in future
              work.

Causes of BankUnited’s Failure
              BankUnited’s board and management embarked on a high-risk growth
              strategy with excessive concentration in option ARMs without
              implementing adequate controls to manage the associated risks.
              Deficient underwriting and credit administration, combined with the
              rapid decline in the real estate market, resulted in the deterioration of
              the thrift’s asset quality, including a substantial volume of problem
              loans and significant loan losses. In turn, these loan losses
              significantly diminished earnings and resulted in negative capital, and
              ultimately, the failure of BankUnited. 

              High Concentration in Option ARMs

              BankUnited historically focused on single-family residential loans which
              made up the thrift’s largest loan category throughout its existence.
              Beginning in 2004, BankUnited started to substantially grow its loan
              portfolio by principally originating and holding single-family residential
              option ARMs. As figure 1 shows, option ARMs totaled $348.5 million in
              2003 and by 2004 had increased to $2.1 billion. By December 31, 2007,
              these loans increased to $7.5 billion, making up 52 percent of
              BankUnited’s total assets.



              Material Loss Review of BankUnited, FSB (OIG-10-042)             Page 4
                    Figure 1: BankUnited’s Option ARM and Asset Growth, 2003–2008 (in billions)

                        $16
                        $14
                        $12
                        $10
                         $8
                         $6
                         $4
                         $2
                         $0
                               Jun‐03      Dec‐04     Dec‐05      Dec‐06       Dec‐07   Dec‐08

                                               Other Assets     Option‐ARM

                    Source: OTS internal failed thrift review report for BankUnited (Oct. 2, 2009).

                        Concentrations pose additional risk to an institution because negative
                        events affecting overly concentrated groups have greater detrimental
                        impact. OTS defines a concentration as a group of similar types of
                        assets or liabilities that, when aggregated, exceed 25 percent of a
                        thrift’s risk-based capital. 2

                        In the case of BankUnited, as shown in figure 2, the percentage of the
                        thrift’s risk-based capital concentrated in option ARM loans rose from
                        67 percent as of June 30, 2003, to as much as 640 percent at
                        December 31, 2006, and then to 575 percent as of March 31, 2008.




2
    OTS New Directions 06-14, Concentrations of Risk


                        Material Loss Review of BankUnited, FSB (OIG-10-042)                          Page 5
Figure 2: Option ARM Loan Exposure as a Percentage of Risk-Based Capital
  700%

  600%

  500%

  400%

  300%

  200%

  100%
                     Threshold Percentage for Concentration (25 percent)
    0%
            Jun‐03        Dec‐04     Dec‐05      Dec‐06     Dec‐07         Mar‐08

Source: BankUnited thrift financial reports (TFR) and OTS internal failed thrift review
report (Oct. 2, 2009).

   High concentration risks are compounded when they consist of
   nontraditional mortgage products, such as option ARMs. These loans
   are riskier because they give borrowers the option of making a
   minimum monthly payment that does not even cover the interest
   charges accrued, let alone the principal amount. For borrowers who
   pay the optional minimum payment, the result is negative
   amortization.

   BankUnited’s negatively amortizing loans generated large amounts of
   capitalized interest, which was recorded on the thrifts’ books as
   accrued (uncollected) interest income. This accrued interest ultimately
   totaled over 30 percent of BankUnited’s capital. As shown in table 1,
   the percentage of option ARM loans with negative amortization
   increased from 53 percent as of December 31, 2005, to 92 percent as
   of June 30, 2008. In other words, over 90 percent of BankUnited’s
   borrowers elected to make payments that were less than the monthly
   interest accruing on their loans.




   Material Loss Review of BankUnited, FSB (OIG-10-042)                             Page 6
                   Table 1: Option ARMs With Negative Amortization
                                                12/31/05       12/31/06       12/31/07        6/30/08
                   Total outstanding
                   balance of negatively       $2.4 billion    $5.6 billion  $6.9 billion    $6.5 billion
                   amortizing option ARMs
                   Percentage of negatively
                   amortizing option ARMs         53%             81%            92%            92%
                   to total option ARMs
                   Total negative
                                               $21 million $130 million $317 million $376 million
                   amortization during year
                   Source: OTS internal failed thrift review report for BankUnited (Oct. 2, 2009).

                       Furthermore, BankUnited’s option ARMs automatically recast and
                       result in higher payments after 5 years or when the balance of the
                       loan increases, because of negative amortization, to more than 115
                       percent of the initial value of the loan. 3 In this regard, BankUnited had
                       $1.3 billion in option ARM loans that were scheduled to recast to a
                       fully amortizing payment in 2009.

                       In summary, BankUnited continued to increase its concentrations in its
                       option ARM portfolio by originating such loans at or near the market
                       peak in 2006. When the real estate market began to deteriorate in
                       2007, the concentrated option ARM portfolio, especially the loans
                       acquired at or near the peak of the market, suffered significant credit
                       deterioration, leading to BankUnited’s failure.

                       Ineffective Controls Over High Option ARM Loan Concentration

                       Deficient Underwriting

                       The rapid growth in BankUnited’s option ARM loan portfolio began in
                       2004. BankUnited’s underwriting guidelines provided flexibility in
                       determining whether, or how, loan applicants’ employment, income
                       and assets were documented or verified. The following procedures
                       were used by the thrift.

                           •   No Doc: income, employment and assets are not verified


3
  Recast is the recalculation of the remaining amortization schedule of a loan. The recalculation occurs when
certain triggers contained in the terms of the loan are reached. This might lead to a substantial increase in
the loan’s scheduled periodic payments.


                       Material Loss Review of BankUnited, FSB (OIG-10-042)                        Page 7
       •   No income/no assets: income and assets are not verified;
           employment is verbally verified
       •   No ratio: no information about income is obtained; employment
           is verbally verified, assets are verified
       •   Stated income: income documentation is waived, employment is
           verbally verified and assets are verified
       •   DocEase: no information collected or verification performed on
           employment, income, and assets

   At the time BankUnited began offering reduced documentation loan
   products, the loan products had not been tested in stressful economic
   conditions. To compound the risk associated with the products, in
   2006 BankUnited further lowered its underwriting standards to
   compete with other lenders and to increase its option ARM portfolio.
   Among other things, BankUnited lowered its credit score requirements
   and eased other qualifying criteria for some of its loan programs
   including no documentation requirements.

   As shown in figure 3, nearly 88 percent of BankUnited’s option ARMs
   as of March 31, 2008, had been underwritten using lowered
   underwriting standards.

Figure 3: Option ARM Portfolio Distribution, by Documentation Type




                                                                 Stated 
                                                            Income/Verified 
                                                              Assets (45%)
    Full                    Reduced 
Documentation            Documentation
    13%                       87%                                             Stated 
                                                                          Income/Stated 
                                              No              No           Assets (20%)
                                          Income/No       Ratio (10%)
                                          Assets (2%)                 Doc
                                                                   Ease (10%)




Source: OTS January 2008 examination report.



   Material Loss Review of BankUnited, FSB (OIG-10-042)                           Page 8
                       Option ARM portfolio credit risk is also impacted by the amount of
                       borrowers’ equity in the pledged collateral. In this regard, BankUnited
                       generally required either (1) loan-to-value (LTV) ratios of either 80
                       percent or less or (2) private mortgage insurance when the LTV ratio
                       was over 80 percent. BankUnited did not originate simultaneous
                       (“piggyback”) mortgages. Normally, these factors would mitigate
                       credit risk. However, according to OTS information, the thrift was
                       aware that some of its borrowers had obtained piggyback loans from
                       other lenders thereby decreasing their equity in the pledged collateral
                       and increasing the credit risk to the thrift.

                       When the market started to deteriorate in 2007, BankUnited began
                       tightening underwriting. By then, however, it was too late for
                       BankUnited to reduce or mitigate the risk already present in its option
                       ARM portfolio, and due to a frozen secondary market it was unable to
                       sell option ARM loans 4 . BankUnited stopped making stated income
                       loans in February 2008 and option ARM loans in May 2008, but its
                       concentration in high-risk option ARMs and lax underwriting had
                       already undermined the asset quality and condition of the thrift.

                       Inadequate Board Supervision of Option ARM Lending and Growth

                       When BankUnited began in 2004 to rapidly increase its option ARM
                       portfolio, its board had not established underwriting policies,
                       monitoring practices, limits, or risk controls commensurate with the
                       risks posed by such growth. There was no evidence in the board
                       minutes of any strategic discussions among the thrift’s board
                       regarding risk tolerances, portfolio diversification, economic risk,
                       growth risk, or limits of any kind.

                       Inadequate Controls Over Third-Party Mortgage Brokers

                       BankUnited marketed its option ARM loan products through a network
                       of third-party mortgage brokers (more than 4,000 in 2006, when the
                       thrift’s production of these loans was at its peak). According to OTS
                       examination documentation, BankUnited evaluated the brokers’
                       performance primarily in terms of productivity or volume. Other

4
  BankUnited principally originated loans to hold in its own loan portfolio; however, it did sell some loans on
the secondary market.



                       Material Loss Review of BankUnited, FSB (OIG-10-042)                          Page 9
                       criteria, such as credit quality and adherence to loan policy with
                       respect to the loans they placed, were secondary. BankUnited also
                       granted mortgage brokers wide discretion in setting the margins for
                       the option ARMs. 5 Loans with higher margins resulted in greater
                       broker compensation. The brokers therefore had a financial incentive
                       to place borrowers in large loans with high margins, with only
                       secondary regard if any for credit quality. These factors, coupled with
                       the already reduced underwriting standards, led to the very poor asset
                       quality of the option ARMs.

                       Decline in BankUnited’s Real Estate Markets

                       By 2007, there were clear indications that the economy as a whole
                       and, in particular, the real estate market were in decline. Before 2007,
                       the banking industry had experienced strong financial performance and
                       success, which had led to some industry complacency regarding risk
                       management practices. Many bank portfolios became heavily
                       concentrated in real estate because it was profitable and in demand.

                       BankUnited’s concentration in option ARM loans was primarily in
                       Florida, constituting approximately 55 percent of its loan portfolio. To
                       a lesser but still significant extent, BankUnited’s loan portfolio was
                       also concentrated in California, Illinois, and Arizona. In 2007, in
                       concert with deteriorating housing markets throughout the United
                       States, BankUnited’s lending areas began to experience a severe real
                       estate downturn. Behind only Nevada, Florida suffered the largest
                       decline in real estate values nationwide. Nonperforming real estate
                       loans in BankUnited’s primary lending areas significantly increased. By
                       June 30, 2008, 51 percent of BankUnited’s nonperforming option
                       ARMs were located in Florida. The increase in BankUnited’s
                       nonperforming real estate loans in all categories, totaling $1.8 billion
                       as of March 31, 2009, resulted in increases in its allowance for loan
                       and lease losses (ALLL) and large losses that significantly diminished
                       the thrift’s earnings and capital to unacceptable levels.

                       In summary, BankUnited failed to implement adequate controls and
                       manage the risks associated with its high-risk growth and
                       concentration in option ARMs. When conditions worsened and the

5
 A margin for an adjustable rate loan is the amount the lender adds to the index rate that serves as the
basis for the loan. The interest rate the borrower pays consists of the index rate, which typically changes
over time, plus whatever margin the lender charges, which is usually fixed over the life of the loan.


                       Material Loss Review of BankUnited, FSB (OIG-10-042)                       Page 10
                      thrift incurred substantial losses, BankUnited was unable to sustain its
                      capital at acceptable levels and became critically undercapitalized for
                      PCA purposes. Deeming the thrift in unsafe and unsound condition,
                      OTS closed BankUnited on May 21, 2009, and appointed FDIC as
                      receiver.


OTS’s Supervision of BankUnited
                      Despite the significant increase of the option ARM portfolio, OTS did not
                      impose limits or restrict BankUnited’s concentration and growth in these
                      loans. In addition, OTS did not adequately assess the underwriting
                      practices of these loans, partly due to its using inappropriate risk
                      indicators to measure the performance of the loan portfolio and relying on
                      inadequate or nonexistent thrift mitigating controls. Furthermore, OTS did
                      not identify or address deficiencies in the thrift’s risk-weighting of loan
                      assets. As reported previously by our office, OTS had improperly directed
                      BankUnited to backdate a capital infusion from its holding company.

                      As BankUnited reported falling capital levels, we concluded that OTS
                      used its authority under PCA in a timely manner but those actions did not
                      prevent BankUnited’s failure or a material loss to the insurance fund.

                      During our material loss review, OTS completed an internal failed thrift
                      review. Consistent with our findings, the review concluded that
                      BankUnited’s failure was caused by losses in its higher risk and
                      geographically concentrated option ARM portfolio and unsafe and
                      unsound practices that elevated the risk profile of these loans. The review
                      found that OTS provided regular oversight of BankUnited, but identified
                      instances where OTS supervision could have been more stringent.

                      Summary of OTS’s BankUnited Supervisory Actions

                      Table 1 summarizes the results of OTS’s safety and soundness and
                      limited examinations of BankUnited from 2003 until its closure in May
                      2009. 6 Appendix 5 provides details of the matters requiring board
                      attention (MRBA) and other corrective actions and recommendations
                      reported in the reports of examinations (ROE). Generally, MRBAs


6
  OTS conducted its examinations and performed offsite monitoring of BankUnited in accordance with the
timeframes prescribed in the OTS Examination Handbook.


                      Material Loss Review of BankUnited, FSB (OIG-10-042)                   Page 11
                      represent the most significant items reported in ROEs requiring
                      corrective action.

     Table 1. Summary of OTS’s Examinations of and Enforcement Actions Against BankUnited
                                                    Examination Results
               Total assets
Date           (in $ billions)                          No. of              Informal/formal
started/date at time of        CAMELS      No. of       recommendations/    enforcement
completed      examinationa    rating      MRBAs        corrective actions  actions
8/25/2003     $6.9              2/222222       5            18                   None
12/11/2003
Full scope
examination
1/31/2005     $8.8              2/212222       0            7                    None
6/06/2005
Full scope
examination
1/20/2006     N/A               2/212222       None         None                 None
5/19/2006
Limited
examination
7/31/2006     $12.9             2/212222       None         14                   None
12/27/2006
Full scope
examination
5/21/2007
7/25/2007
              N/A               2/222222       None         2                    None
Limited
examination
11/5/2007     N/A              N/A             None         4                    None
12/13/2007
Limited IT
examination
6/30/2008     N/A               3/343432       OTS, BankUnited, and its holding company entered
6/30/2008                                      into memoranda of understanding (MOU), which are
Notice of                                      informal enforcement actions, on July 24, 2008.
rating
downgrade
1/31/2008     $14.3             4/443442       14           18                   None
7/11/2008
Full scope
examination
8/11/2008     N/A               4/443442       OTS reclassified BankUnited from well-capitalized to
9/3/2008                                       adequately capitalized.
Limited
examination




                      Material Loss Review of BankUnited, FSB (OIG-10-042)                      Page 12
     Table 1. Summary of OTS’s Examinations of and Enforcement Actions Against BankUnited
                                                    Examination Results
               Total assets
Date           (in $ billions)                          No. of              Informal/formal
started/date at time of        CAMELS      No. of       recommendations/    enforcement
completed      examinationa    rating      MRBAs        corrective actions  actions
9/4/2008      N/A              5/554554       OTS issued cease and desist (C&D) orders, which
12/18/2008                                    are formal enforcement actions, to Bank United and
Notice of                                     its holding company on September 19, 2008.
rating
downgrades                                    OTS issued a PCA directive to BankUnited on
                                              April 19, 2009.
Source: OTS ROEs and enforcement actions.

                     OTS Did Not Impose Limits on BankUnited’s Significant Growth and High
                     Risk Concentration of Option ARM Loans

                     BankUnited’s option ARM portfolio grew from 5 percent of total assets
                     in 2003 to 52 percent by December 31, 2007. As shown earlier in
                     figure 2, the concentration of option ARMs as a percentage of the
                     thrift’s risk-based capital rose from 67 percent as of June 30, 2003,
                     to 575 percent as of March 31, 2008.

                     In the 2005 and 2006 ROEs, OTS examiners identified BankUnited’s
                     significant growth in its option ARM loan portfolio as asset and
                     geographic risk concentrations. However, despite the significant
                     increase of the portfolio, OTS did not include any MRBAs or corrective
                     actions in the 2005 through 2008 ROEs to impose limits or restrict the
                     thrift’s concentration and growth in these loans. In addition, as
                     discussed further below, examiners had identified as risk indicators in
                     the 2006 examination that 70 percent of the thrift’s option ARM loans
                     were negatively amortizing, deferred interest represented a growing
                     percentage of income, and 84 percent of the thrift’s option ARMs
                     were underwritten with less than full documentation.

                     OTS stated in its October 2009 internal failed thrift report that these
                     indicators could have supported the establishment of growth and
                     concentration risk limits. OTS’s internal report further stated that both the
                     2005 and 2006 examinations would have been appropriate times for OTS
                     supervisory staff to intervene and require option ARM loan concentration
                     and growth limits.




                     Material Loss Review of BankUnited, FSB (OIG-10-042)                    Page 13
                      OTS’s examiners for BankUnited told us it would have been difficult to
                      limit concentrations due to the thrift’s mitigating risk controls and the
                      lack of existing guidance. As mitigating risk controls, the examiners noted
                      in ROEs that BankUnited (1) required mortgage insurance on loans with
                      an LTV ratio over 80 percent; (2) did not make loans to borrowers with a
                      credit score less than 620; (3) did not make second mortgages;
                      (4) limited lending to the high rise condominium market in Miami, Florida;
                      and (5) required a reasonability of income test by its underwriters on
                      stated income loans. Examiners also identified the low historical loss rates
                      associated with the thrift’s option ARM portfolio at the time as a basis for
                      not elevating concern over risky lending practices and high credit
                      concentrations. Furthermore, examiners noted existing regulatory
                      guidance set only general limitations for loan concentrations, and did not
                      provide regulatory guidance for concentrations in nontraditional mortgage
                      products such as option ARMs. We reviewed the existing guidance and
                      found that to be the case.

                      We have reported on excessive concentrations in option ARMs and a
                      lack of strong supervisory response in a number of our material loss
                      reviews during the current crisis. To address the need for more
                      guidance on concentration limits, OTS issued guidance to thrifts in
                      July 2009 regarding asset and liability concentrations and related risk
                      management practices. 7 The guidance reemphasizes important risk
                      management practices and encourages financial institutions to revisit
                      existing concentration policies in light of the current economic
                      environment. The guidance informs thrifts that OTS examiners will
                      scrutinize higher risk concentrations and pursue appropriate corrective
                      or enforcement action when an institution does not maintain
                      appropriate concentration limits or takes excessive risks. The guidance
                      states that OTS will monitor institutions with a concentration
                      exceeding 100 percent of core capital plus ALLL. While we believe the
                      guidance is better than what had been available to thrifts previously, it
                      is too soon to tell whether the guidance will be effective at controlling
                      risky concentrations going forward. Furthermore, there has been no
                      recent update to examiner procedures that would identify a trigger
                      point where concentrations are excessive from a safety and
                      soundness perspective nor provide examiners a range of responses to



7
 Chief Executive Officer Letter No. 311, Risk Management: Asset and Liability Concentrations (July 9,
2009)


                      Material Loss Review of BankUnited, FSB (OIG-10-042)                     Page 14
                       address excessive concentrations. 8 This is an area we believe requires
                       continued OTS management action.

                       OTS Did Not Adequately Assess BankUnited’s Underwriting Practices

                       OTS has long maintained that “no documentation” residential real estate
                       lending is an unsafe and unsound practice. According to OTS guidance, a
                       prudently underwritten loan is one that has been made in a safe and
                       sound manner to ensure the borrower has the ability and willingness to
                       repay the loan in a timely manner. Furthermore, the 2006 Interagency
                       Guidance on Nontraditional Mortgage Product Risks (2006 interagency
                       guidance) states that loans to individuals who do not demonstrate the
                       capacity to repay, from sources other than the collateral pledged, are
                       generally considered unsafe and unsound.9

                       Throughout OTS’s supervision of BankUnited the examiners considered
                       the thrift’s underwriting standards to be prudent even though “reduced
                       documentation” lending was a significant part of BankUnited’s business.
                       In the 2005 and 2006 ROEs, OTS examiners reported that the thrift’s
                       option ARM loans were underwritten to strict standards to mitigate risk,
                       and described the underwriting as both prudent and satisfactory. Also in
                       the 2006 ROE the examiners noted that BankUnited’s option ARM
                       portfolio had an average LTV ratio after mortgage insurance of 73 percent
                       and an average credit score of 710. Examiners further wrote that as the
                       level of documentation decreased, required credit scores were higher,
                       LTV ratios lower, loan balances smaller, and the occurrence of cash out,
                       investor loans, second homes, and other higher-risk loans diminished
                       greatly.

                       While on the surface these factors were positive, we believe OTS
                       inadequately assessed the thrift’s underwriting practices partly due to
                       using inappropriate risk indicators to measure the performance of the
                       option ARM portfolio and relying on inadequate mitigating controls. The
                       examiners failed to consider that option ARM loans negatively amortize
                       when borrowers pay only the minimum payment, which was the case
                       with the majority of BankUnited’s borrowers. How the examiners came to
                       their conclusions about the thrift’s underwriting was further flawed

8
  The last update to the OTS Examination Handbook pertaining to this subject was in June 2005. That
update required examiners to identify asset concentrations over 25 percent of total risk-based capital or 2
percent of assets in ROEs.
9
  OTS No. 2006-35


                       Material Loss Review of BankUnited, FSB (OIG-10-042)                       Page 15
                       considering that no doc lending practices, which comprised nearly 11
                       percent of the option ARM portfolio, did not conform with existing OTS
                       guidance which deemed the types of loan products being offered as
                       unsafe and unsound. 10 Additionally, until October 2007 BankUnited did
                       not have any formal guidelines to document its reasonableness tests of
                       borrowers’ reported income for stated income loans. This was a
                       significant deficiency in that more than 65 percent of BankUnited’s option
                       ARMs were made based on (1) stated income or (2) stated income and
                       stated assets. Therefore, approximately 75 percent of BankUnited’s
                       option ARMs originated between 2006 and 2007 were not prudently
                       underwritten in a safe and sound manner based on existing OTS
                       guidance.

                       It should be noted that by 2008, OTS started to report underwriting
                       weaknesses. In the 2008 ROE, the examiners noted that BankUnited’s
                       internal audit reports, quality assurance reports, and the examiner’s loan
                       review sample had disclosed weaknesses in assessing borrower capacity
                       and willingness to pay.

                       OTS Did Not Detect BankUnited’s Improper Risk-Weighting of Its Option
                       ARM Portfolio in a Timely Manner

                       An insured financial institution’s capital category for PCA purposes is
                       determined, in part, by calculation of the total risk-based capital ratio. 11  
                       To calculate the ratio, assets are risk-weighted through assignment to
                       one of four standard risk-weight categories, depending upon the nature of
                       the assets, obligors, and collateral. 12 As an asset’s level of risk increases,
                       the risk-weight assigned to the asset increases causing the total risk-
                       based capital ratio to decrease. Therefore, higher volumes of riskier
                       assets create the need for an institution to maintain larger amounts of
                       capital. A thrift’s total risk-based capital ratio must exceed 10 percent to
                       meet the regulatory threshold for a well-capitalized designation unless the
                       regulator has imposed a higher capital level under its PCA authority.


10
   BankUnited’s DocEase program required no employment, income, or asset information from the borrower.
At March 31, 2008, 10.6 percent of the option ARM portfolio consisted of DocEase loans.
11
   There are five established capital classifications for insured financial institutions: well-capitalized,
adequately capitalized, undercapitalized, significantly undercapitalized, and critically undercapitalized. PCA
restricts the activities of institutions that are not well-capitalized. For example, the unlimited use of
brokered deposits is reserved to well-capitalized insured depository institutions. Adequately capitalized or
lower institutions are required to obtain a waiver from FDIC in order to accept brokered deposits.
12
   There are four standard risk-weight categories: 0 percent, 20 percent, 50 percent, and 100 percent.


                       Material Loss Review of BankUnited, FSB (OIG-10-042)                       Page 16
                      According to OTS guidance, thrifts must assign at least a 50 percent risk-
                      weight to qualifying single family mortgages that are (1) prudently
                      underwritten; (2) performing and not more than 90 days past due; 13 and
                      (3) have a current LTV ratio of 90 percent or less, calculated using the
                      value at origination. Should a mortgage fail to meet any of the criteria, it
                      must be categorized as a non-qualifying mortgage and assigned a 100
                      percent risk-weight.

                      Inaccurate risk-weighting can have the effect of misstating capital ratios
                      as it did in the case of BankUnited. Based on its risk-weighting of assets,
                      BankUnited reported its condition as well-capitalized through the quarter
                      ending June 30, 2008. BankUnited risk-weighted all performing option
                      ARM loans at 50 percent. However, it is our opinion that most of
                      BankUnited’s option ARM loans did not meet the prudently underwriting
                      criterion for this risk-weight. In this regard, approximately 75 percent of
                      BankUnited’s option ARM portfolio originated between 2006 and 2007
                      had no documentation or reduced documentation features. Accordingly,
                      we concluded that this portion of the performing option ARM portfolio did
                      not qualify for the 50 percent risk-weighting and instead should have
                      been risk-weighted at 100 percent. During its 2008 examination, OTS
                      examiners failed to detect that BankUnited was not properly risk-
                      weighting its option ARMs. Subsequent to the examination, a September
                      2008 internal OTS email indicates that OTS officials also had concerns
                      with BankUnited’s risk-weighting of reduced documentation option ARM
                      loans at 50 percent instead of at 100 percent.

                      OTS Directed BankUnited to Backdate a Capital Contribution

                      In June 2009, we reported on the circumstances surrounding
                      inappropriately backdated capital contributions by six thrifts.14 One of
                      those thrifts was BankUnited. In the case of BankUnited, on August 4,
                      2008, OTS regional officials had requested BankUnited’s holding
                      company to infuse $80 million in capital to the thrift in order to
                      improve BankUnited’s regulatory capital ratio. OTS officials also,
                      inappropriately, instructed the thrift to revise its TFR, dated as of
                      June 30, 2008, to reflect the backdated capital infusion. The
                      contribution was in fact made in August 2008 and the TFR was
                      amended to reflect the contribution as of June 30, 2008. The OTS

13
  BankUnited properly risk-weighted numerous loans once they became 90 days past due.
14
  OIG, Safety and Soundness: OTS Involvement With Backdated Capital Contributions by Thrifts,
OIG-09-037 (May 21, 2009).


                      Material Loss Review of BankUnited, FSB (OIG-10-042)                  Page 17
                       regional officials’ instructions to BankUnited were made at the
                       direction of the OTS Senior Deputy Director at the time, that individual
                       is no longer with OTS.

                       An unusual factor in this case was that even without the backdated
                       capital contribution, BankUnited appeared to have met the regulatory
                       minimum requirement of well-capitalized as of June 30, 2008, based
                       on its TFR information. Including the $80 million backdated capital
                       contribution, the TFR reported total risk-based capital ratio at 13.9
                       percent. However, the capital ratio of 13.9 percent is based on
                       BankUnited’s performing option ARM portfolio being risk-weighted at
                       50 percent. As discussed in the previous subsection, we concluded
                       that most of these loans should have been risk-weighted at 100
                       percent because of their no documentation or reduced documentation
                       features. Had these loans been risk-weighted at 100 percent and
                       excluding the August 2008 backdated capital contribution of $80
                       million, we calculated that BankUnited’s actual risk-based capital ratio
                       as of June 30, 2008, was 9.8 percent. That means that the thrift was
                       only adequately capitalized, not well-capitalized, at June 30, 2008. By
                       reporting its financial condition the way it did, BankUnited delayed
                       PCA. 15

                       We referred these matters involving BankUnited’s financial reporting to
                       the Treasury Inspector General Office of Investigations.

                       As Conditions Swiftly Deteriorated at BankUnited, OTS’s Use of PCA and
                       Enforcement Authorities Was Reasonable

                       Notwithstanding our criticisms of the improper backdating of the capital
                       contribution and BankUnited’s improper risk-weighting of its option
                       ARMs, we concluded that OTS acted in a reasonable and appropriate
                       manner in its supervisory response to the deteriorating conditions at
                       BankUnited starting in late June 2008. Following is a description of the
                       key actions OTS took.

                       •   In a letter dated June 30, 2008, OTS notified BankUnited’s board that
                           OTS had downgraded the thrift’s composite rating and component
                           ratings for capital, asset quality, management, earnings, and liquidity.
                           The resulting ratings were 3/343432.

15
  Under PCA, an adequately capitalized institution is prohibited from accepting or renewing brokered
deposits unless a waiver is obtained from FDIC.


                       Material Loss Review of BankUnited, FSB (OIG-10-042)                     Page 18
•   On July 24, 2008, OTS executed an MOU with BankUnited that
    required the thrift to, among other things, (1) terminate negative
    amortization and reduced documentation lending programs; (2) submit
    a loan reduction plan and business plan within 60 days; (3) achieve
    and maintain core and risk-based capital ratios of 8 and 15 percent,
    respectively; and (4) ensure that its loss reserves are no less than
    $280 million at September 30, 2008.

    The terms of the MOU addressed the major issues of the thrift and
    were consistent with the type of informal enforcement action OTS
    may take under its examination guidance when a thrift is downgraded
    to a composite rating of 3.

•   In a separate letter dated July 24, 2008, OTS notified BankUnited’s
    board of OTS’s intent to reclassify the thrift’s PCA capital category
    from well-capitalized to adequately capitalized pursuant to OTS’s
    authority under PCA. OTS stated in the letter that it had determined
    that the thrift was in an unsafe and unsound condition due to the
    deterioration in its portfolio of nontraditional mortgage loans, the
    concentration of risk associated with the portfolio, and the resultant
    need for significant additional capital. BankUnited was given until
    August 15, 2008, to provide a written response stating why the
    reclassification should not be done. The thrift did provide a written
    response by that date and a supplemental response on August 20,
    2008.

•   In a letter dated August 8, 2008, OTS transmitted its 2008 ROE to
    BankUnited’s board. In the ROE, OTS downgraded the CAMELS
    composite rating to 4 and the component ratings for capital, asset
    quality, earnings and liquidity to 4. As a result of the downgraded
    composite rating of 4, the letter also designated the thrift to be in
    troubled condition as defined by 12 C.F.R. § 563.555.

•   In a letter dated September 5, 2008, OTS formally downgraded
    BankUnited to adequately capitalized under PCA. The letter stated that
    based on a review of BankUnited’s written submissions and other
    documentation, OTS confirmed that BankUnited was in an unsafe and
    unsound condition for the reasons described in the July 24th letter.




Material Loss Review of BankUnited, FSB (OIG-10-042)           Page 19
•   On September 19, 2008, OTS issued C&D orders to BankUnited and
    its holding company. Among other things the C&D order required the
    thrift to meet and maintain tier 1 capital levels at 7 percent and total
    risk-based capital at 14 percent.

•   On February 10, 2009, OTS sent a PCA directive to BankUnited’s
    board regarding the bank’s critically undercapitalized status and
    required the submission of a capital restoration plan. This action was
    taken in response to a December 2008 field visit and downgrade of
    the CAMELS composite rating to 5.

•   BankUnited submitted a capital restoration plan on February 25, 2009,
    which was based on an injection of $1 billion in new capital by
    March 31, 2009, but was made contingent upon Open Bank
    Assistance in the form of a loss sharing arrangement with FDIC or
    another government agency. OTS determined that Open Bank
    Assistance was not available in BankUnited’s case because it was not
    believed that BankUnited’s failure presented a systemic risk, and the
    plan submitted by BankUnited was not based on realistic assumptions
    and would not succeed in restoring the thrift’s capital.

•   On April 10, 2009, OTS sent BankUnited a notice of intent to issue a
    PCA directive and its denial of the thrift’s capital restoration plan. OTS
    finalized that directive 4 days later, which included the consent of
    BankUnited’s board to the appointment of a conservator or receiver.
    (OTS closed the thrift on May 21, 2009.)

The PCA and other enforcement actions taken by OTS ultimately were
unsuccessful to prevent the thrift’s failure or a material loss to the
Deposit Insurance Fund.

OTS Lessons Learned Review

OTS policy requires that an internal assessment be conducted when a
thrift fails. That assessment, referred to as an internal failed bank review,
is performed by staff independent of the region responsible for
supervisory oversight of the failed thrift. The report is reviewed and
signed by OTS’s deputy director of examinations, supervision, and
consumer protection. OTS’s Western Region initiated an internal review
of BankUnited following its failure in May 2009. The scope of the review
focused primarily on OTS’s supervision from August 2003 to May 2009.


Material Loss Review of BankUnited, FSB (OIG-10-042)             Page 20
OTS’s review determined that BankUnited’s failure was caused by losses
in its higher risk and geographically concentrated option ARM portfolio.
These nontraditional mortgage products were primarily underwritten with
unverified borrower stated income and to a lesser degree, unverified
stated assets. The internal review also stated that the following unsafe
and unsound practices elevated the risk profile of the option ARM
portfolio:

    •   inadequate board of director supervision over option ARM lending
        and growth,
    •   weak underwriting standards combined with stated-income and
        reduced documentation,
    •   loosening of option ARM credit standards and inadequate internal
        controls over third party mortgage brokers, and
    •   option ARM product concentration and geographic concentrations.

Regarding supervision, the review found that OTS provided regular
oversight of BankUnited, but identified instances where OTS supervision
could have been more stringent. Specifically, the 2005 and 2006
examinations were identified as opportunities for OTS supervisory staff to
intervene and require option ARM concentration and growth limits. Even
though option ARMs were performing well at this time, the review
asserted that growth and concentration limits would have been prudent
for this type of product, noting that the performance of which was
untested in stressful economic conditions.

OTS examiners cited the following alternative risk indicators as evidence
of potential option ARM risk in the 2006 examination: 70 percent of
option ARMs were negatively amortizing; deferred interest represented a
growing percentage of income, 87 percent of option ARMs were
underwritten with less than full documentation, BankUnited’s option ARM
monitoring procedures needed improvement, and BankUnited was not
fully complying with the 2006 interagency guidance. The 2006
examination was also identified as an appropriate time to bring the
growing option ARM credit risks, weaknesses in option ARM monitoring
procedures, and BankUnited’s noncompliance with the 2006 interagency
guidance to the board’s attention for corrective action.




Material Loss Review of BankUnited, FSB (OIG-10-042)         Page 21
                      The OTS report made the following recommendations:

                      •   OTS should consider as an unsafe and unsound practice, the use of
                          reduced documentation underwriting, including stated income and
                          stated asset underwriting, unless mitigating risk controls are in
                          place. 16
                      •   OTS should emphasize to supervisory staff the importance of timely
                          identification of unsafe and unsound practices in general, and a
                          cautious supervisory approach when evaluating the risks of new
                          products.

                      The report did not include a recommendation regarding concentration
                      issues noting that these matters were substantially the same issues noted
                      in recent 2009 failed bank reviews and other OIG audit reports, and had
                      been addressed with the July 9, 2009 release of Chief Executive Officer
                      (CEO) Letter No. 311, Risk Management: Asset and Liability
                      Concentrations.

                      Our material loss review affirms the findings and recommendations of
                      OTS’s internal review. It should be noted, however, that OTS’s internal
                      review did not identify the problem with BankUnited’s risk-weighting of
                      option ARMs and that the 2008 examination did not detect this
                      deficiency.

                      As stated earlier, while we recognize that additional guidance has been
                      issued to thrifts on concentration issues as in the CEO letter mentioned
                      above, it is too soon to tell whether that guidance is effective. The
                      success of this guidance to prevent or mitigate conditions such as those
                      that led to BankUnited’s failure and loss to the Deposit Insurance Fund is
                      dependent on its consistent and faithful implementation by thrifts and
                      assertive regulatory intervention when unsound and unsafe practices are
                      found in both good and bad times. This is a point that cannot be
                      emphasized enough. Additionally, the CEO Letter and existing examiner
                      guidance does not address at what levels concentrations are unsafe and
                      unsound.



16
  Current OTS guidance states that no documentation lending is unsafe and unsound. With respect to
reduced documentation loans, the guidance requires examiners to scrutinize such loans. What is new with
the OTS lessons-learned recommendation is that absent mitigating controls, reduced documentation loans
would now be considered unsafe and unsound.


                      Material Loss Review of BankUnited, FSB (OIG-10-042)                    Page 22
Recommendations
           Our material loss review of BankUnited is the tenth such review we
           have performed of a failed OTS-regulated financial institution during
           the current financial crisis. Appendix 6 lists the other nine material
           loss reviews and our associated recommendations. OTS management
           agreed with the prior recommendations and has taken action or is
           taking corrective actions to address them.

           The most recent prior material loss review, of Peoples Community
           Bank completed by a contractor under our supervision, included a
           recommendation that OTS work with its regulatory partners to
           determine whether to propose legislation and/or change regulatory
           guidance to establish limits or other controls for concentrations that
           pose an unacceptable safety and soundness risk and determine an
           appropriate range of examiner response to high risk concentrations.
           Our material loss review of BankUnited reaffirms the need for OTS to
           take action on this recommendation.

           As new recommendations from our material loss review of
           BankUnited, we recommend that the Director of OTS do the following:

           1. ensure that recommendations from OTS’s internal failed thrift
              review of BankUnited’s failure are implemented.

               Management Response

               OTS concurred with the recommendation. OTS cited, as actions
               taken (1) the issuance of CEO Letter No. 311 to address
               concentrations and (2) the issuance of a new section to the OTS
               Examination Handbook on September 16, 2009 (Section 760,
               Other Activities). The purpose for issuing Section 760 was to
               address the internal failed bank review recommendation that
               supervisory staff be advised of the importance of timely
               identification of unsafe and unsound practices and the need for a
               cautious approach when evaluating new product risk. OTS expects
               to complete action by July 31, 2010, on the internal review
               recommendation that reduced documentation loan underwriting be
               considered as unsafe and unsound unless appropriate mitigating
               controls are in place.



           Material Loss Review of BankUnited, FSB (OIG-10-042)          Page 23
    OIG Comment

    We consider OTS’s actions taken and planned to be responsive to our
    recommendation. As noted in our report, we believe the guidance
    provided in CEO Letter No. 311 is better than what had been
    available to thrifts previously. However, as we also noted, it is too
    soon to tell whether the guidance will be effective at controlling
    risky concentrations going forward. We agree that the new Section
    760 provides additional guidance to examiners on evaluating risks
    associated with new products and other new activities and on the
    need to exercise caution with respect to new activities. If
    implemented as described, the new section should result in earlier
    identification of potentially unsafe and unsound practices for
    supervisory action.

2. caution examiners to pay particular attention to the risk-weighting
   of option ARMs and, going forward, ensure that decisions by thrifts
   to risk-weight these loans at anything other than 100 percent are
   adequately justified. In this regard, OTS should issue clarifying
   guidance to thrifts and examiners as to those option ARMs that
   qualify for risk-weighting other than 100 percent. Due to the
   significant impact the clarifying guidance may have on thrift
   financial reporting, the clarifying guidance should be issued in an
   expeditious manner.

    Management Response

    OTS concurred with the recommendation and is currently drafting
    clarifying guidance for issuance to the industry and examiners by
    July 31, 2010.

    OIG Comment

    We consider OTS’s planned action to be responsive to our
    recommendation. We plan to assess the clarifying guidance in
    future work.




Material Loss Review of BankUnited, FSB (OIG-10-042)             Page 24
                              * * * * *

We appreciate the courtesies and cooperation provided to our staff
during the audit. If you wish to discuss the report, you may contact
me at (202) 927-5776 or Lisa DeAngelis, Audit Manager, at
(202) 927-5621. Major contributors to this report are listed in
appendix 8.



/s/
Susan Barron
Audit Director




Material Loss Review of BankUnited, FSB (OIG-10-042)         Page 25
                        Appendix 1
                        Objectives, Scope, and Methodology




                        We conducted this material loss review of BankUnited, FSB
                        (BankUnited), of Coral Gables, Florida, in response to our mandate
                        under section 38(k) of the Federal Deposit Insurance Act. 17 This
                        section provides that if the Deposit Insurance Fund incurs a
                        material loss with respect to an insured depository institution, the
                        inspector general for the appropriate federal banking agency is to
                        prepare a report to the agency that

                        •    ascertains why the institution’s problems resulted in a material
                             loss to the insurance fund;
                        •    reviews the agency’s supervision of the institution, including its
                             implementation of the prompt corrective action (PCA) provisions
                             of section 38; and
                        •    makes recommendations for preventing any such loss in the
                             future.

                        Section 38(k) defines a loss as material if it exceeds the greater of
                        $25 million or 2 percent of the institution’s total assets. The law
                        also requires the inspector general to complete the report within 6
                        months after it becomes apparent that a material loss has been
                        incurred.

                        We initiated a material loss review of BankUnited based on the loss
                        estimate by the Federal Deposit Insurance Corporation (FDIC). As
                        of March 8, 2010, FDIC estimated that the loss to the Deposit
                        Insurance Fund from BankUnited’s failure would be $4.9 billion.

                        Our objectives were to determine the causes of BankUnited’s
                        failure; assess the Office of Thrift Supervision’s (OTS) supervision
                        of BankUnited, including implementation of the PCA provisions of
                        section 38; and make recommendations for preventing such a loss
                        in the future. To accomplish our review, we conducted fieldwork at
                        OTS’s headquarters in Washington, D.C.; OTS’s southeast region
                        office in Atlanta, Georgia; and BankUnited’s operations center in
                        Miami Lakes, Florida. We also met with officials of FDIC’s Division
                        of Supervision and Consumer Protection in Atlanta, Georgia. We
                        conducted our fieldwork from July 2009 through November 2009.




17
     12 U.S.C. § 1831o(k).


                        Material Loss Review of BankUnited, FSB (OIG-10-042)            Page 26
Appendix 1
Objectives, Scope, and Methodology




To assess the adequacy of OTS’s supervision of BankUnited, we
determined (1) when OTS first identified BankUnited’s safety and
soundness problems, (2) the gravity of the problems, and (3) the
supervisory response OTS took to get the thrift to correct the
problems. We also assessed whether OTS (1) might have
discovered problems earlier; (2) identified and reported all the
problems; and (3) issued comprehensive, timely, and effective
enforcement actions that dealt with any unsafe or unsound
activities. Specifically, we performed the following work:

•   We determined that the time period relating to OTS’s
    supervision of BankUnited covered by our audit would be from
    August 2003 through BankUnited’s failure on May 21, 2009.
    This period included four full-scope safety and soundness
    examinations prior to OTS’s August 2008 designation of
    BankUnited as a troubled institution and four limited-scope
    examinations.

•   We reviewed OTS’s supervisory files and records for
    BankUnited from 2003 through May 2009. We analyzed
    examination reports, supporting workpapers, and related
    supervisory and enforcement correspondence. We performed
    these analyses to gain an understanding of the problems
    identified, the approach and methodology OTS used to assess
    the thrift’s condition, and the regulatory action OTS used to
    compel thrift management to address deficient conditions. We
    did not conduct an independent or separate detailed review of
    the external auditor’s work or associated workpapers other than
    those incidentally available through the supervisory files.

•   We interviewed and discussed various aspects of the
    supervision of BankUnited with OTS officials and examiners to
    obtain their perspectives on the thrift’s condition and the scope
    of the examinations.

•   We interviewed FDIC officials who were responsible for
    monitoring BankUnited for federal deposit insurance purposes.

•   We reviewed BankUnited documents that had been taken by
    FDIC and inventoried by FDIC Division of Resolutions and
    Receiverships personnel.


Material Loss Review of BankUnited, FSB (OIG-10-042)           Page 27
                        Appendix 1
                        Objectives, Scope, and Methodology




                        •   We assessed OTS’s actions based on its internal guidance and
                            requirements of the Federal Deposit Insurance Act. 18

                        We conducted this performance audit in accordance with generally
                        accepted government auditing standards. Those standards require
                        that we plan and perform the audit to obtain sufficient, appropriate
                        evidence to provide a reasonable basis for our findings and
                        conclusions based on our audit objectives. We believe that the
                        evidence obtained provides a reasonable basis for our findings and
                        conclusions based on our audit objectives.




18
     12 U.S.C. § 1811 et seq.


                        Material Loss Review of BankUnited, FSB (OIG-10-042)          Page 28
Appendix 2
Background




History of BankUnited

BankUnited, FSB (BankUnited) began operations as a state-
chartered institution in October 1984 under the name United
Savings Association. In 1993, it converted to a federal stock
charter and changed its name to BankUnited, FSB. BankUnited was
the largest financial institution headquartered in Florida, operating
Florida branches, numerous loan production offices around the
country, and a wholesale network for originating loans through
mortgage brokers. BankUnited became a wholly owned subsidiary
of BankUnited Financial Corporation (BFC) in 1995. BFC was a
holding company that operated primarily as a financing vehicle for
the thrift. Beginning with its formation in 1995, BFC raised capital
for BankUnited by issuing debt, primary trust preferred securities,
and equity securities. BankUnited’s assets were approximately
$13.1 billion as of March 31, 2009.

BankUnited was historically a residential mortgage lender and was
consistently profitable. It had low loan delinquencies, good asset
quality, and strong capital levels until 2008. Beginning in 2004,
BankUnited embarked on a strategy to increase its option
adjustable rate mortgage option ARM) portfolio. In 2003, option
ARM loans were only 5 percent of BankUnited’s total assets. By
2004, option ARM loans had risen to 24 percent of the thrift’s
total assets and by June 30, 2008, they had grown to 65 percent
of total assets.

The decline in housing prices in BankUnited’s Florida market area in
2007 contributed to rising delinquencies in its large portfolio of
option ARMs. Further, these loans were originated during the peak
of the real estate market and were underwritten mostly using
alternative documentation standards. Ultimately, the combination
of an excessive concentration in risky option ARM loans and rapidly
deteriorating economic conditions overwhelmed BankUnited’s
capacity to absorb the losses on its option ARM portfolio. OTS
closed the thrift on May 21, 2009.

Appendix 4 contains a chronology of significant events regarding
BankUnited.




Material Loss Review of BankUnited, FSB (OIG-10-042)           Page 29
                       Appendix 2
                       Background




                       Types of Examinations Conducted by OTS

                       OTS conducts various types of examinations, including safety and
                       soundness, compliance, and information technology (IT).

                       OTS must conduct full scope examinations of insured thrifts either
                       once every 12 months or once every 18 months, depending on the
                       size of the thrift and other factors. 19 BankUnited was on a 12-
                       month cycle. During a full scope examination, examiners conduct
                       an onsite examination and rate all CAMELS components. OTS then
                       assigns the thrift a CAMELS composite rating based on its
                       assessment of the thrift’s overall condition and OTS’s level of
                       supervisory concern.

                       Enforcement Actions Available to OTS

                       OTS performs various examinations of thrifts that result in the
                       issuance of reports of examinations (ROE) identifying areas of
                       concern. OTS uses informal and formal enforcement actions to
                       address violations of laws and regulations and to address unsafe
                       and unsound practices.

                       Informal Enforcement Actions

                       When a thrift’s overall condition is sound but it is necessary to
                       obtain written commitments from its board of directors or
                       management to ensure that it will correct identified problems and
                       weaknesses, OTS may use informal enforcement actions. OTS
                       commonly uses informal actions for problems in well- or adequately
                       capitalized thrifts and for thrifts with a composite rating of 1, 2, or
                       3.

                       Informal actions notify a thrift’s board and management that OTS
                       has identified problems that warrant attention. A record of informal
                       action is beneficial in case formal action is necessary later.

19
  The 18-month examination cycle applies to insured thrifts with total assets of $500 million or less
that (1) received a CAMELS composite rating of 1 or 2 and a compliance component rating of 1 or 2 for
their most recent examination, (2) received a CAMELS management component rating of 1 or 2 for their
most recent examination, (3) are well-capitalized, (4) are not currently subject to a formal enforcement
proceeding or order by OTS or FDIC, and (5) have not undergone a change in control during the 12-
month period since completion of their last full scope examination.


                       Material Loss Review of BankUnited, FSB (OIG-10-042)                     Page 30
Appendix 2
Background




The effectiveness of informal action depends in part on the
willingness and ability of a thrift to correct deficiencies that OTS
notes. If a thrift violates or refuses to comply with an informal
action, OTS cannot enforce compliance in federal court or assess
civil money penalties for noncompliance. However, OTS may
initiate more severe enforcement action against a noncompliant
thrift.

Informal enforcement actions include supervisory directives,
memoranda of understanding, and board resolutions.

Formal Enforcement Actions

Formal enforcement actions are enforceable under the Federal
Deposit Insurance Act. They are appropriate when a thrift has
significant problems, especially when there is a threat of harm to
the thrift, depositors, or the public. OTS is to use formal
enforcement actions when informal actions are considered
inadequate, ineffective, or otherwise unlikely to secure correction
of safety and soundness or compliance problems.

OTS can assess civil money penalties against thrifts and individuals
for noncompliance with a formal agreement or final orders. OTS
can also request a federal court to require a thrift to comply with
an order. Unlike informal actions, formal enforcement actions are
public.

Formal enforcement actions include cease and desist orders, civil
money penalties, and prompt corrective action directives.

OTS Enforcement Guidelines

Considerations for determining whether to use informal action or
formal action include the following:

•   the extent of actual or potential damage, harm, or loss to the
    thrift because of the action or inaction;

•   whether the thrift has repeated the illegal action or unsafe or
    unsound practice;


Material Loss Review of BankUnited, FSB (OIG-10-042)            Page 31
Appendix 2
Background




•   the likelihood that the conduct may occur again;

•   the thrift’s record for taking corrective action in the past;

•   the capability, cooperation, integrity, and commitment of the
    thrift’s management, board of directors, and ownership to
    correct identified problems;

•   the effect of the illegal, unsafe, or unsound conduct on other
    financial institutions, depositors, or the public;

•   the examination rating of the thrift;

•   whether the thrift’s condition is improving or deteriorating; and

•   the presence of unique circumstances.




Material Loss Review of BankUnited, FSB (OIG-10-042)                Page 32
                    Appendix 3
                    Glossary


Allowance for loan and              An estimate of uncollectible amounts that is used
lease losses                        to reduce the book value of loans and leases to the
                                    amount that is expected to be collected. It is
                                    established in recognition that some loans in the
                                    institution’s overall loan and lease portfolio will not be
                                    repaid.

Brokered deposit                    Any deposit that is obtained, directly or indirectly,
                                    from a deposit broker. The bank or thrift solicits
                                    deposits by offering rates of interest that are
                                    significantly higher than the rates offered by other
                                    insured depository institutions in its normal market
                                    area. Use of brokered deposits is limited to well-
                                    capitalized insured depository institutions and, with a
                                    waiver from the Federal Deposit Insurance
                                    Corporation, to adequately capitalized institutions.
                                    Undercapitalized institutions are not permitted to
                                    accept brokered deposits. (See 12 U.S.C. § 1831(f)
                                    and 12 C.F.R. 337.6.)

CAMELS                              An acronym for performance rating components for
                                    financial institutions: capital adequacy, asset quality,
                                    management, earnings, liquidity, and sensitivity to
                                    market risk. Numerical values range from 1 to 5,
                                    with 1 being the best rating and 5 being the worst.

Capital restoration plan            A plan submitted to the appropriate federal banking
                                    agency by an undercapitalized insured depository
                                    institution. A capital restoration plan specifies the
                                    steps the insured depository institution is to take to
                                    become adequately capitalized, the levels of capital to
                                    be attained during each year in which the plan is in
                                    effect, how the institution is to comply with the
                                    restrictions or requirements then in effect, the types
                                    and levels of activities in which the institution is to
                                    engage, and any other information that the federal
                                    banking agency may require.

Cease and desist order              A type of formal enforcement action. A cease and
                                    desist order issued by the Office of Thrift Supervision
                                    normally requires the thrift to correct a violation of a
                                    law or regulation, or an unsafe or unsound practice.


                    Material Loss Review of BankUnited, FSB (OIG-10-042)                Page 33
                     Appendix 3
                     Glossary


                                     The Office of Thrift Supervision may issue a cease and
                                     desist order in response to violations of federal
                                     banking, securities, or other laws by thrifts or
                                     individuals or if it believes that an unsafe and unsound
                                     practice or violation is about to occur.

Concentration                        As defined by the Office of Thrift Supervision, a group
                                     of similar types of assets or liabilities that, when
                                     aggregated, exceed 25 percent of a thrift’s core
                                     capital plus allowance for loan and lease losses.
                                     Concentrations may include direct, indirect, and
                                     contingent obligations or large purchases of loans
                                     from a single counterparty.

Concentration risk                   Risk in a loan portfolio that arises when a
                                     disproportionate number of an institution’s loans are
                                     concentrated in one or a small number of financial
                                     sectors, geographical areas, or borrowers.

Division of Resolutions              A division within the Federal Deposit Insurance
and Receiverships                    Corporation that is charged with resolving failing and
                                     failed financial institutions, including ensuring that
                                     depositors have prompt access to their insured funds.

Federal Home Loan Bank               A system of 12 regional cooperative banks created by
System                               Congress from which member institutions borrow
                                     funds to finance housing, economic development,
                                     infrastructure, and jobs. The system provides liquidity
                                     to member institutions that hold mortgages in their
                                     portfolios and facilitates the financing of mortgages by
                                     making low-cost loans, called advances, to members.
                                     Advances with a wide variety of terms to maturity,
                                     from overnight to long-term, are available to members
                                     and are collateralized. Advances are designed to
                                     prevent any possible loss to Federal Home Loan
                                     Banks, which also have a super lien (a lien senior or
                                     superior to all current and future liens on a property or
                                     asset) when institutions fail. To protect their position,
                                     Federal Home Loan Banks have a claim on any of the
                                     additional eligible collateral in a failed institution. In
                                     addition, the Federal Deposit Insurance Corporation
                                     has a regulation that reaffirms the priority of Federal


                     Material Loss Review of BankUnited, FSB (OIG-10-042)               Page 34
                      Appendix 3
                      Glossary


                                      Home Loan Banks, which can demand prepayment of
                                      advances when institutions fail.

Field visit                           A visit conducted to review specific areas of concern
                                      that the Office of Thrift Supervision has about an
                                      institution.

Formal agreement                      A type of formal enforcement action authorized by
                                      statute. Formal agreements are generally more severe
                                      than informal actions and are disclosed to the public.
                                      Formal actions are also enforceable through the
                                      assessment of civil money penalties.

Full scope examination                Examination activities performed during the
                                      supervisory cycle that (1) are sufficient in scope to
                                      assign or confirm an institution’s CAMELS composite
                                      and component ratings; (2) satisfy core assessment
                                      requirements; (3) result in conclusions about an
                                      institution’s risk profile; (4) include onsite supervisory
                                      activities; and (5) generally conclude with the
                                      issuance of a report of examination.

Generally accepted                    A widely accepted set of rules, standards,
accounting principles                 and procedures for reporting financial information
                                      established by the Financial Accounting Standards
                                      Board.

Loan production offices               Banking offices that take loan applications and arrange
                                      financing for corporations and small businesses but
                                      that do not accept deposits. Loan applications taken
                                      by loan production offices are subject to approval by
                                      the lending institution.

Loan-to-value ratio                   A ratio for a single loan and property calculated by
                                      dividing the total loan amount at origination by the
                                      market value of the property securing the credit plus
                                      any readily marketable collateral or other acceptable
                                      collateral. In accordance with Interagency Guidelines
                                      for Real Estate Lending Policies, institutions’ internal
                                      loan-to-value limits should not exceed the legal lending
                                      limit: (1) 65 percent for raw land; (2) 75 percent for
                                      land development; (3) 80 percent for commercial,


                      Material Loss Review of BankUnited, FSB (OIG-10-042)                Page 35
                   Appendix 3
                   Glossary


                                   multifamily, and other nonresidential loans; and (4) 85
                                   percent for one-family to four-family residential loans.
                                   The guidelines do not specify a limit for owner-
                                   occupied one-family to four-family properties and
                                   home equity loans. However, when the loan-to-value
                                   ratio on such a loan equals or exceeds 90 percent at
                                   the time of origination, the guidelines state that the
                                   institution should require mortgage insurance or
                                   readily marketable collateral.

Matter requiring                   A practice noted during an Office of Thrift Supervision
board attention                    examination of a thrift that deviates from sound
                                   governance, internal control, and risk management
                                   principles. The matter, if not addressed, may
                                   adversely affect the thrift’s earnings or capital, risk
                                   profile, or reputation or may result in substantive
                                   noncompliance with laws or regulations, internal
                                   policies or processes, supervisory guidance, or
                                   conditions imposed in writing in connection with the
                                   approval of any application or other request by the
                                   institution. Although matters requiring board attention
                                   are not formal enforcement actions, the Office of
                                   Thrift Supervision requires that thrifts address them. A
                                   thrift’s failure to do so may result in a formal
                                   enforcement action.

Mortgage Broker                    Mortgage broker An intermediary that brings
                                   mortgage borrowers and mortgage lenders together
                                   but does not use its own funds to originate
                                   mortgages.

Negative amortization              occurs when the monthly payments on a loan do not
                                   cover all the interest owed. The interest not paid is
                                   added to the principal loan balance and is referred to
                                   as capitalized interest. With negative amortization,
                                   borrowers may owe more than they did at the
                                   beginning of the loan even after they have made many
                                   payments. Additionally, the borrower’s equity in the
                                   property will decrease over time unless the property
                                   value increases at a higher rate than negative
                                   amortization.




                   Material Loss Review of BankUnited, FSB (OIG-10-042)              Page 36
                     Appendix 3
                     Glossary


Open Bank Assistance                 A type of resolution method where the Federal
                                     Deposit Insurance Corporation provides
                                     financial assistance to an operating insured bank or
                                     thrift to keep it from failing.

Prompt corrective action             A framework of supervisory actions for insured
                                     institutions that are not adequately capitalized. It was
                                     intended to ensure that action is taken when an
                                     institution becomes financially troubled in order to
                                     prevent a failure or minimize resulting losses. These
                                     actions become increasingly severe as an institution
                                     falls into lower capital categories. The capital
                                     categories are well-capitalized, adequately capitalized,
                                     undercapitalized, significantly undercapitalized, and
                                     critically undercapitalized. (See 12 U.S.C. § 1831o.)

                                     The prompt corrective action minimum requirements
                                     are as follows:

                                                            Tier 1/
                                       Total                Risk-            Tier 1/
              Capital Category         Risk-Based           Based            Leverage
                                       10% or         and 6% or           and 5% or greater
              Well-capitalizeda
                                       greater              greater
              Adequately               8% or          and 4% or           and 4% or greater
              capitalized              greater              greater             (3% for 1-rated)
                                       Less           or    Less          or    Less than 4% (except
              Undercapitalized
                                       than 8%              than 4%             for 1-rated)
              Significantly            Less           or    Less          or    Less than 3%
              undercapitalized         than 6%              than 3%
                                       Has a ratio of tangible equity to total assets that is equal
              Critically
                                       to or less than 2 percent. Tangible equity is defined in
              undercapitalized
                                       12 C.F.R. § 565.2(f).
              a
                To be well-capitalized, a bank also cannot be subject to a higher capital requirement
              imposed by the Office of Thrift Supervision.

Recourse                             With respect to financial assets such as loans, the
                                     legal ability of the purchaser an asset to make a claim
                                     against the seller of the asset if the asset fails to pay.
                                     For example, a loan sold with a recourse provision
                                     would allow the loan’s purchaser to make a claim
                                     against the loan’s seller in the event of debtor default.

Risk-based capital                   The sum of Tier1 plus Tier 2 capital.



                     Material Loss Review of BankUnited, FSB (OIG-10-042)                      Page 37
                     Appendix 3
                     Glossary




Stated income loan                   A specialized mortgage loan for which the lender
                                     verifies employment and assets, but not income.
                                     Instead, income is simply stated on the loan
                                     application.

Stress testing                       Analysis that estimates the effect of economic or
                                     other changes on key performance measures, such as
                                     losses, delinquencies, and profitability. Key variables
                                     used in stress testing may include interest rates, Fair
                                     Isaac Corporation score distributions, asset values,
                                     growth rates, and unemployment rates.

Supervisory directive                An informal enforcement action by the Office of Thrift
                                     Supervision that directs a thrift to cease an activity or
                                     take an affirmative action to remedy or prevent an
                                     unsafe or unsound practice.

Tangible equity                      Total assets minus intangible assets minus total
                                     liabilities.


Tier 1 capital                       Common shareholder’s equity (common stock,
                                     surplus, and retained earnings), noncumulative
                                     perpetual preferred stock, and minority interests in the
                                     equity accounts of consolidated subsidiaries.

Tier 2 capital                       Subordinated debt, intermediate-term preferred stock,
                                     cumulative and long-term preferred stock, and a
                                     portion of the allowance for loan and lease losses.

Thrift financial report              A financial report that thrifts are required to file
                                     quarterly with the Office of Thrift Supervision. The
                                     report includes detailed information about the
                                     institution's operations and financial condition and
                                     must be prepared in accordance with generally
                                     accepted accounting principles. The thrift financial
                                     report is similar to the call report required of
                                     commercial banks.




                     Material Loss Review of BankUnited, FSB (OIG-10-042)               Page 38
                     Appendix 3
                     Glossary


Transaction Account                  A component of the Federal Deposit Insurance
Guarantee Program                    Corporation’s Temporary Liquidity Guarantee Program.
                                     The Temporary Liquidity Guarantee Program was
                                     established in October 2008 as part of a coordinated
                                     effort by the Federal Deposit Insurance Corporation,
                                     the Department of the Treasury, and the Federal
                                     Reserve to address unprecedented disruptions in credit
                                     markets and the resultant inability of financial
                                     institutions to fund themselves and make loans to
                                     creditworthy borrowers. The Temporary Liquidity
                                     Guarantee Program has two distinct components:
                                     (1) the Debt Guarantee Program and (2) the
                                     Transaction Account Guarantee Program. The Federal
                                     Deposit Insurance Corporation guarantees certain
                                     senior unsecured debt issued by participating entities
                                     under the Debt Guarantee Program and all funds held
                                     in qualifying noninterest-bearing transaction accounts
                                     at participating insured depositary institutions under
                                     the Transaction Account Guarantee Program.
                                     Originally scheduled to expire on December 31, 2009,
                                     the Transaction Account Guarantee Program was
                                     extended in August 2009 until June 30, 2010.
                                     Participating insured depositary institutions pay an
                                     assessment fee for the additional guarantee.

Troubled condition                   A condition in which a thrift meets any of the
                                     following criteria: (1) the Office of Thrift Supervision
                                     notifies it in writing that it has been assigned a
                                     composite CAMELS rating of 4 or 5. (2) It is subject
                                     to a capital directive, a cease and desist order, a
                                     consent order, a formal written agreement, or a
                                     prompt corrective action directive relating to its safety
                                     and soundness or financial viability. (3) the Office of
                                     Thrift Supervision informs it in writing of its troubled
                                     condition based on information available to the Office
                                     of Thrift Supervision. Such information may include
                                     current financial statements and reports of
                                     examination.




                     Material Loss Review of BankUnited, FSB (OIG-10-042)               Page 39
                   Appendix 4
                   Chronology of Significant Events




The following chronology describes significant events in the history of BankUnited,
FSB (BankUnited), including examinations conducted and enforcement actions taken
by the Office of Thrift Supervision (OTS).

10/3/1984 The thrift is established as a state chartered de novo institution under the
          name United Savings Association.

10/1/1989 United Savings Association changes its name to Bank United Savings
          Bank and becomes a mutual savings bank, a type of bank that does not
          issue capital stock, is owned by its depositors, and managed by a board
          of trustees. The bank distributes profits to the depositors in proportion to
          the business they do with the bank.

2/2/1990    Bank United Savings Bank changes its name to Bank United, A Savings
            Bank, and changes its organization type to stock savings and loan, which
            allows the institution to raise capital by issuing stock and primarily uses
            the savings of its stockholders to fund mortgage, single family
            construction, and personal loans.

3/5/1993    Bank United, A Savings Bank, changes its name to BankUnited, FSB, and
            changes its organization type to stock savings bank, a type of institution
            that issues stock and distributes its profits to its stockholders who
            possess the right to elect directors to the board.

1/31/1995 BankUnited becomes a wholly owned subsidiary of BankUnited Financial
          Corporation (BFC).

8/25/2003 OTS begins a full scope examination that is completed on December 11,
          2003, resulting in CAMELS composite and component ratings of
          2/222222. BankUnited meets the regulatory standard for a well-
          capitalized designation.

2004        BankUnited begins increasing its emphasis on option adjustable rate
            mortgage (option ARM) loans originated for portfolio (held for
            investment).

1/31/2005 OTS begins a full scope examination that is completed on June 6, 2005,
          resulting in CAMELS composite and component ratings of 2/212222.
          BankUnited meets the regulatory standard for a well-capitalized
          designation.




                   Material Loss Review of BankUnited, FSB (OIG-10-042)           Page 40
                   Appendix 4
                   Chronology of Significant Events




3/31/2005 Option ARMs total $2.7 billion, or 29 percent, of total assets, compared
          with only 5 percent at June 30, 2003. Twenty-eight percent of the
          option ARM loans are negatively amortizing.

1/20/2006 OTS begins a limited examination that is completed on May 19, 2006.
          The examination includes a review of both the underwriting of
          BankUnited’s option ARM loans and the disclosures provided to option
          ARM borrowers. No exceptions were noted concerning the underwriting
          or consumer disclosures.

6/30/2006 Option ARMs in a negative amortization position total approximately 70
          percent.

7/31/2006 OTS begins a full scope examination that is completed on December 27,
          2006, resulting in CAMELS composite and component ratings of
          2/212222. BankUnited meets the regulatory standard for a well-
          capitalized designation.

9/30/2006 Option ARMs total $6.7 billion, or 49 percent of BankUnited’s total
          assets.

5/21/2007 OTS begins a limited examination to assess management’s efforts to
          achieve compliance with current interagency guidance on nontraditional
          mortgage product risks and other corrective actions noted in the last
          examination related to nontraditional mortgage products. A review of
          asset quality ratios and trends demonstrates deterioration since the last
          examination, completed in December 2006, and the adverse trend does
          not appear to be subsiding. As a result, OTS downgrades BankUnited’s
          CAMELS asset quality rating from 1 to 2.

12/10/2007 OTS begins a limited examination that is completed December 14, 2007.
           The purpose of the examination is to assess BankUnited’s compliance
           with outstanding issues related to the interagency guidance on
           nontraditional mortgage product risks that were found during the May 21,
           2007, limited examination. OTS notes that the level of problem residential
           loans continues to increase rapidly and gives no indication that it will
           begin to subside. Based on current projections, BankUnited’s nonaccrual
           loans and real estate owned are expected to be about $865 million (or
           about 65 percent of total capital) by September 30, 2008.




                   Material Loss Review of BankUnited, FSB (OIG-10-042)         Page 41
                   Appendix 4
                   Chronology of Significant Events




12/31/2007 Ninety-one percent, or $6.9 billion, of BankUnited’s option ARMs are
           negatively amortizing.

1/31/2008 OTS, joined by the Federal Deposit Insurance Corporation, begins a full
          scope examination that is completed on July 11, 2008, resulting in
          CAMELS composite and component ratings of 4/443442. BankUnited
          meets the regulatory standard for a well-capitalized designation.

3/31/2008 Option ARMs total $7.3 billion, or 51 percent of BankUnited’s total
          assets.

5/2008      BankUnited discontinues production of option ARMs.

6/30/2008 OTS downgrades BankUnited’s CAMELS composite and component
          ratings for asset quality, earnings, capital, and liquidity, resulting in
          ratings of 3/343432 (downgraded further to 4/443442 on July 11,
          2008). BFC is also assigned a composite CAMELS rating of 3 to reflect
          OTS’s concerns about the holding company’s ability to continue to
          service the significant debt it has accumulated and to successfully access
          capital markets in light of BankUnited’s significant asset quality issues.

7/24/2008 OTS issues a memorandum of understanding (MOU) to BFC that requires
          the holding company to raise a minimum of $400 million and to adopt a
          capital augmentation plan.

7/24/2008 OTS issues an MOU to BankUnited that requires the thrift to (1) terminate
          negative amortization and reduced documentation lending programs;
          (2) submit a loan reduction plan and business plan within 60 days;
          (3) achieve and maintain core and risk-based capital ratios of 8 and 15
          percent, respectively; and (4) ensure that its loss reserves are no less
          than $280 million at September 30, 2008.

7/24/2008 OTS notifies BankUnited of its intent to reclassify the thrift’s prompt
          corrective action (PCA) capital category from well-capitalized to
          adequately capitalized. OTS determines that the thrift is in an unsafe and
          unsound condition due to the deterioration in its portfolio of nontraditional
          mortgage loans, the concentration of risk associated with the portfolio,
          and the resultant need for significant additional capital.

8/4/2008    OTS headquarters officials, including the senior deputy director and the
            deputy director for examinations, supervision, and consumer protection,


                   Material Loss Review of BankUnited, FSB (OIG-10-042)          Page 42
                   Appendix 4
                   Chronology of Significant Events




             participate in a conference call with OTS southeast region officials to
             discuss BankUnited’s CAMELS ratings for a recently concluded
             examination of the thrift and the appropriate supervisory and enforcement
             response. Among the items discussed is the willingness of thrift
             management to infuse capital from the holding company into the thrift to
             offset a loss for the quarter ending June 30, 2008. The senior deputy
             director directs OTS regional management to request the holding
             company to infuse as close to a certain amount of funds as possible. The
             senior deputy director advises that for regulatory purposes the infusion
             should be recognized as of June 30, 2008, and the thrift financial report
             (TFR) amended accordingly.

8/8/2008     OTS notifies the BankUnited that it is in troubled condition, based on the
             findings of its full -scope examination completed on July 11, 2008.

8/11/2008 OTS begins a limited examination of BankUnited that is completed on
          September 3, 2008, resulting in CAMELS composite and component
          ratings of 4/443442. Although BankUnited meets the regulatory standard
          for a well-capitalized designation, OTS concludes that the thrift’s capital
          levels are insufficient to support its current risks.

8/11/2008 BFC files Form 8-K with the Securities and Exchange Commission (the
          “current report” companies must file to announce major events that
          shareholders should know about). The 8-K includes a press release and a
          presentation, dated August 8, 2008, of BFC’s financial results for the
          quarter ended June 30, 2008. The 8-K announces that BFC strengthened
          BankUnited’s capital “through an $80 million capital contribution.”
          BankUnited’s resulting core and risk-based capital ratios are 7.6 percent
          and 13.8 percent, respectively.

8/12/2008 BFC files a notification of late filing of its 10-Q (a filing that contains an
          entity’s unaudited financial statements) with the Securities and Exchange
          Commission for the quarter ended June 30, 2008. According to the
          notification, the late filing results from continuing adverse market
          conditions that have increased the complexity of accounting and
          disclosure issues.

8/25/2008 BFC files the 10-Q for the quarter ended June 30, 2008, disclosing that
          the company has agreed with its regulators to take a number of actions,
          including raising $400 million of new capital, and that OTS may
          downgrade the thrift’s capital category and impose additional restrictions.


                   Material Loss Review of BankUnited, FSB (OIG-10-042)           Page 43
                 Appendix 4
                 Chronology of Significant Events




           The 10-Q states that effective June 30, 2008, for regulatory capital
           purposes, BFC contributed $80 million in additional capital to BankUnited.
           Ultimately, BankUnited was never successful in raising new capital prior
           to the thrift’s closing in May 2009.

9/4/2008   OTS begins a limited examination of BankUnited that is completed on
           December 18, 2008, resulting in CAMELS composite and component
           ratings of 5/554554.

9/5/2008   OTS downgrades BankUnited to adequately capitalized for PCA purposes.
           OTS bases the reclassification on examination findings and projected
           growth in BankUnited’s nonperforming assets and projected losses in its
           option ARM portfolio.

9/19/2008 OTS issues cease and desist (C&D) orders to BankUnited and BFC that
          replace the July 24, 2008, MOUs.

           The C&D order to BankUnited requires the thrift to (1) meet and maintain
           minimum levels of Tier 1 capital of 7 percent and total risk-based capital
           of 14 percent (regulatory minimum requirements are 6 percent and 10
           percent, respectively); (2) cease production of new loans that may result
           in negative amortization and loans underwritten using reduced
           documentation standards; (3) adopt and submit for OTS review a loan
           reduction plan to reduce the level of option ARM loans; (4) adopt and
           submit for OTS review a comprehensive business plan extending through
           the fiscal year ending September 30, 2011; (5) adopt and submit for OTS
           review a revised allowance for loan and lease losses methodology;
           (6) restrict growth, dividend payments, management changes, severance
           and indemnification payments, and changes in employment contracts and
           compensation arrangements; (7) prepare a quarterly liquidity report for
           the board’s review; and (8) appoint a committee of nonemployee
           directors to monitor and coordinate compliance with all provisions of the
           C&D order on a quarterly basis.

           The C&D order to BFC requires the holding company to (1) adopt and
           implement the capital augmentation plan and the alternative capital
           strategy submitted in conformance with the requirements of the BFC
           MOU dated July 24, 2008; (2) restrict dividend payments; (3) comply
           with prior notification requirements for changes in directors or senior
           executive officers, employment contracts, and any other compensation
           arrangements; (4) restrict golden parachute payments or prohibited


                 Material Loss Review of BankUnited, FSB (OIG-10-042)          Page 44
                   Appendix 4
                   Chronology of Significant Events




            indemnification payments unless compliance with specified regulatory
            requirements is achieved; (5) comply with prior notification with respect
            to new or renewed debt.

10/20/2008 The individual holding the positions of chairman, chief executive officer,
           and director of BankUnited and BFC resigns. The individual holding the
           positions of president and chief operating officer of BankUnited and BFC
           is appointed chief executive officer of the thrift and BFC.

11/2008     The Federal Home Loan Bank (FHLB) (1) denies BankUnited’s request for
            a $50 million advance, (2) indicates that it will no longer lend to the
            thrift, (3) expects the thrift to pay down all maturing advances to
            eliminate any collateral shortfall, and (4) informs thrift management that
            its credit score will be downgraded from a 9 to a 10. Ten represents the
            lowest credit rating on FHLB’s credit risk rating scale of 1 to 10.

12/16/2008 BFC files a notification of late filing of its 10-K (an annual filing that
           provides a comprehensive overview of a company's business and
           financial condition and includes audited financial statements) with the
           Securities and Exchange Commission for the fiscal year ended September
           30, 2008. According to the notification, the late filing is caused by
           continuing adverse market conditions and the complexity of accounting
           and disclosure issues—factors that have resulted in the need for
           additional review and analysis of the business, including regulatory
           issues, liquidity, and capital. BankUnited expects to file the 10-K in
           January 2009.

12/18/2008 OTS issues a report of examination for a field visit to BankUnited,
           resulting in CAMELS composite and component ratings of 5/554554.
           OTS also assigns BFC a composite rating of 5.

1/26/2009 BankUnited amends its TFR for the quarter ended September 30, 2008,
          to include a larger loan loss provision. Based on the amendment, the thrift
          meets the definition of undercapitalized under PCA.

1/30/2009 The thrift files its TFR for the quarter ended December 31, 2008, and
          meets the definition of critically undercapitalized under PCA.

2/10/2009 BFC files a notification of late filing with the Securities and Exchange
          Commission for its 10-Q for the quarter ended December 31, 2008. The
          notification states that BFC expects to need about 2 more months to file


                   Material Loss Review of BankUnited, FSB (OIG-10-042)          Page 45
                   Appendix 4
                   Chronology of Significant Events




            the 10-K and the 10-Q because of the need for additional review and
            analysis of the business resulting from continuing adverse market
            conditions and the complexity of accounting and disclosure issues.

2/10/2009 OTS sends a PCA notice to BankUnited’s board regarding the thrift’s
          critically undercapitalized status and requires that the thrift submit a
          capital restoration plan.

2/25/2009 BankUnited submits a capital restoration plan to OTS. The capital
          restoration plan submitted by BankUnited includes the an injection of $1
          billion in equity capital at March 31, 2009 and is contingent upon Open
          Bank Assistance in the form of a loss sharing arrangement with the FDIC
          or other government agency and development of an appropriate deal
          structure.

3/12/2009 BankUnited provides notification to the Federal National Mortgage
          Association (Fannie Mae) that it will voluntarily terminate the mortgage
          selling and servicing contract between the thrift and Fannie Mae effective
          April 1, 2009. The voluntary termination will require the thrift to write off
          its recorded Fannie Mae servicing asset, which totaled $15.8 million at
          February 28, 2009.

4/10/2009 OTS sends BankUnited a notice of intent to issue a PCA directive and a
          denial of the thrift’s capital restoration plan. OTS rejects the plan because
          it relies on a government-assisted open bank transaction.

4/14/2009 OTS issues the PCA directive, which includes the consent of
          BankUnited’s board to the appointment of a conservator or receiver.

5/12/2009 BFC files a notification of late filing of its 10-Q for quarter ended March
          31, 2009, with the Securities and Exchange Commission. The notification
          states that management is working diligently to complete all late filings
          by June 15, 2009, but that no assurances can be given about BFC’s
          ability to file by this date.

5/21/2009 OTS closes BankUnited, and the Federal Deposit Insurance Corporation is
          appointed as receiver.




                   Material Loss Review of BankUnited, FSB (OIG-10-042)          Page 46
                Appendix 5
                OTS Examinations and Enforcement Actions




                This appendix lists the Office of Thrift Supervision’s (OTS) full-
                scope safety and soundness and limited examinations of
                BankUnited, FSB (BankUnited), from August 2003 until the thrift’s
                failure in May 2009 and provides information on the significant
                results of those examinations. Generally, matters requiring board
                attention represent the most significant items requiring corrective
                action found by the examiners. This appendix also lists the informal
                and formal enforcement actions taken against BankUnited by OTS.

                                        Significant safety and soundness
                                        matters requiring board attention and
                                        other corrective actions and
Date                        Assets      recommendations cited in reports of        Informal/formal
examination     CAMELS      (in         examinations and limited examination       enforcement
started/ended   rating      billions)   reports                                    action
8/25/2003       2/222222    $6.9        Matters requiring board attention          None
12/11/2003                              • Identify and cure all flood insurance
                                          shortages on existing loans in every
(Full scope                               department. The review should
examination)                              encompass loans requiring flood
                                          insurance covered by a dwelling
                                          policy form, as well as loans insured
                                          through a residential condominium
                                          building association policy (RCBAP)
                                          form. This review should be
                                          thoroughly documented, including
                                          specifically addressing the loans with
                                          flood insurance shortages and the
                                          action taken.
                                        • Revise policies and procedures in the
                                          residential and consumer lending
                                          departments to accurately describe
                                          the methodology for determining the
                                          amount of flood insurance required
                                          by federal regulations. If the bank
                                          uses evaluation reports in addition to
                                          appraisal reports to determine insured
                                          value for flood insurance purposes,
                                          the procedures should specifically
                                          describe all applicable methodologies
                                          for calculating coverage and be
                                          consistent with regulatory
                                          requirements.
                                        • Revise procedures to describe the
                                          methodology for analyzing



                Material Loss Review of BankUnited, FSB (OIG-10-042)                      Page 47
                Appendix 5
                OTS Examinations and Enforcement Actions




                                        Significant safety and soundness
                                        matters requiring board attention and
                                        other corrective actions and
Date                        Assets      recommendations cited in reports of         Informal/formal
examination     CAMELS      (in         examinations and limited examination        enforcement
started/ended   rating      billions)   reports                                     action
                                          condominium unit loans insured
                                          through a RCBAP form to ensure that
                                          flood insurance is adequate to meet
                                          federal regulatory requirements.
                                          These procedures should reflect the
                                          review at loan origination and
                                          renewal and the review of updated
                                          RCBAP master policies.
                                        • Revise the adjustable rate mortgage
                                          (ARM) program, disclosures, notes,
                                          and other consumer documents to
                                          reflect the actual loan servicing
                                          practices in the consumer
                                          department. This would include, but
                                          not be limited to, defining, using, and
                                          selecting the index values for
                                          subsequent rate adjustments as
                                          specified in the note and matching
                                          ARM program disclosure.
                                        • Obtain documentation from legal
                                          counsel opining that BankUnited is
                                          legally permitted, without the
                                          agreement of the affected borrowers,
                                          to revise its notes and look-back
                                          period for loans with look-back
                                          periods that are inconsistent with the
                                          note and ARM program disclosures.
                                        Other corrective actions
                                        • Perform and document a periodic
                                          country risk analysis for the nations
                                          representing the highest risk and
                                          adjust the maximum portfolio limits
                                          by country, if appropriate, based on
                                          this analysis.
                                        • Ensure that the following internal
                                          audit areas are addressed: (1)
                                          weaknesses cited in audit follow-ups;
                                          (2) an assessment of department
                                          effectiveness; and (3) contingency
                                          planning.



                Material Loss Review of BankUnited, FSB (OIG-10-042)                       Page 48
                Appendix 5
                OTS Examinations and Enforcement Actions




                                        Significant safety and soundness
                                        matters requiring board attention and
                                        other corrective actions and
Date                        Assets      recommendations cited in reports of          Informal/formal
examination     CAMELS      (in         examinations and limited examination         enforcement
started/ended   rating      billions)   reports                                      action
                                        • Strengthen the compliance audit area
                                          and provide for sufficient
                                          departmental resources to address
                                          corrective actions in this area without
                                          materially disrupting future
                                          performance.
                                        • Develop a policy and procedures
                                          manual for the operation of mortgage
                                          servicing assets as recommended by
                                          internal audit. The manual should
                                          address pricing, revaluation,
                                          accounting and risk assessment,
                                          along with methods used to manage
                                          the servicing asset. Review the
                                          requirements of the Interagency
                                          Advisory on Mortgage Banking and
                                          ensure that the new policy and
                                          procedures comply. The board should
                                          approve the new policy no later than
                                          120 days following the receipt of this
                                          report.
                                        • Revise the liquidity management
                                          policy to more fully address the
                                          guidance outlined in Thrift Bulletin
                                          77. The policy should establish
                                          quantitative guidelines and limits to
                                          ensure adequate liquidity, including
                                          limits on the use of wholesale funds.
                                          The board of directors should review
                                          and approve the revised policy no
                                          later than 90 days after the receipt of
                                          this report, and management should
                                          institute reports to periodically
                                          monitor compliance with the
                                          approved limits.
                                        • (directed to the board) If interest rate
                                          risk policy limits are exceeded going
                                          forward, address the exception and
                                          approve remedial strategies to bring
                                          the institution into compliance.



                Material Loss Review of BankUnited, FSB (OIG-10-042)                        Page 49
                Appendix 5
                OTS Examinations and Enforcement Actions




                                        Significant safety and soundness
                                        matters requiring board attention and
                                        other corrective actions and
Date                        Assets      recommendations cited in reports of        Informal/formal
examination     CAMELS      (in         examinations and limited examination       enforcement
started/ended   rating      billions)   reports                                    action
                                        • Report to the board the results of the
                                          in-house interest rate risk model as
                                          soon as possible after the end of the
                                          quarter.
                                        • Force-place flood insurance in a
                                          timely manner and in accordance
                                          with regulatory requirements.
                                        • Accurately describe index values
                                          used for rate adjustments in ARM
                                          program disclosures. Index values
                                          used for rate adjustments must be
                                          readily available to and verifiable by
                                          the borrower and beyond the control
                                          of the bank.
                                        • If management decides to add
                                          margins to the residential department
                                          ARM loans with improperly omitted
                                          margins, seek legal guidance to
                                          ensure that contract law and Truth in
                                          Lending laws and regulations are
                                          followed. If pursued, this course of
                                          action, including a legal opinion,
                                          should be documented for future OTS
                                          review.
                                        • Officially appoint the Community
                                          Reinvestment Act officer.
                                        • Continue to monitor application rates
                                          by race and present this analysis at
                                          least annually, along with a
                                          comparison with benchmarks, to the
                                          board.
                                        • Continue to monitor the geographic
                                          distribution of residential loans, as
                                          well as loans to borrowers of
                                          different incomes, and compare the
                                          results to the same benchmarks used
                                          by federal banking regulators. The
                                          board should be apprised at least
                                          annually of lending results to low-
                                          and moderate-income borrowers and



                Material Loss Review of BankUnited, FSB (OIG-10-042)                      Page 50
                Appendix 5
                OTS Examinations and Enforcement Actions




                                        Significant safety and soundness
                                        matters requiring board attention and
                                        other corrective actions and
Date                        Assets      recommendations cited in reports of          Informal/formal
examination     CAMELS      (in         examinations and limited examination         enforcement
started/ended   rating      billions)   reports                                      action
                                          in low- and moderate-income
                                          geographies in the assessment area.
1/31/2005       2/212222    $8.8        Matters requiring board attention            None
6/06/2005                               • None

(Full scope                             Other corrective actions
examination)                            • Ensure that, as appropriate, a
                                          discounted value rather than a gross
                                          retail value is used to calculate loan-
                                          to-value ratios.
                                        • Develop a more comprehensive
                                          liquidity policy commensurate with
                                          the bank’s practices, size, and
                                          complexity of operations. The policy
                                          should incorporate the bank’s
                                          liquidity procedure and guidelines as
                                          well as the contingency plan. The
                                          policy should also include the
                                          following: (1) a description of the
                                          various forecasting methods utilized
                                          for cash flow projections;
                                          (2) definitions of the procedures
                                          necessary for approvals of exceptions
                                          to policies, limits, and authorizations;
                                          (3) a detailed contingency plan for
                                          handling unanticipated stressful
                                          scenarios.
                                        • Ensure that the revised liquidity plan
                                          is reviewed and approved by the
                                          board.
                                        • Review the accounts associated with
                                          all federal grand jury and law
                                          enforcement subpoenas received
                                          since January 1, 2003. This review is
                                          to be conducted to identify potential
                                          money laundering, suspicious
                                          activity, or other violations of Bank
                                          Secrecy Act (BSA) regulations and
                                          should be completed by September
                                          30, 2005.



                Material Loss Review of BankUnited, FSB (OIG-10-042)                        Page 51
                Appendix 5
                OTS Examinations and Enforcement Actions




                                        Significant safety and soundness
                                        matters requiring board attention and
                                        other corrective actions and
Date                        Assets      recommendations cited in reports of          Informal/formal
examination     CAMELS      (in         examinations and limited examination         enforcement
started/ended   rating      billions)   reports                                      action
                                        • Perform a retroactive review of wire
                                           transfers since January 1, 2004, to
                                           identify suspicious activity involving
                                           money laundering or potential BSA
                                           violations. Suspicious activity reports
                                           (SAR) should be filed as necessary.
                                           This review should be completed by
                                           September 30, 2005.
                                        • Conduct a retroactive review of
                                           significant and/or unusual cash
                                           transactions going back to January 1,
                                           2004, to identify suspicious activity
                                           involving money laundering or
                                           potential BSA violations. SARs should
                                           be filed as necessary. This review
                                           should be completed by
                                           December 31, 2005.
                                        • Review the customer profiles for all
                                           existing high-risk accounts to ensure
                                           that the profiles are accurate and
                                           complete. Special emphasis should
                                           be placed on accounts with
                                           international wire transfer activity
                                           and/or significant cash transactions.
                                           This review should be completed by
                                           December 31, 2005.
1/20/2006       2/212222    N/A         In this limited examination, OTS             None
5/19/2006                               reviewed the underwriting of and
                                        disclosures provided to recent option
(Limited                                adjustable rate mortgage (option ARM)
examination)                            borrowers for residential properties.
                                        OTS noted no exceptions in its review.
7/31/2006       2/212222    $12.9       Matters requiring board attention            None
12/27/2006                              • None
(Full scope
examination
                                        Other corrective actions
                                        • Develop and begin using a
                                          standardized format when presenting
                                          option ARM information to senior
                                          management and the board. On at


                Material Loss Review of BankUnited, FSB (OIG-10-042)                        Page 52
                Appendix 5
                OTS Examinations and Enforcement Actions




                                        Significant safety and soundness
                                        matters requiring board attention and
                                        other corrective actions and
Date                        Assets      recommendations cited in reports of          Informal/formal
examination     CAMELS      (in         examinations and limited examination         enforcement
started/ended   rating      billions)   reports                                      action
                                          least a quarterly basis, the standard
                                          reviews should include a written
                                          analysis of the more material changes
                                          and trends in portfolio characteristics,
                                          loan originations, loan sales,
                                          delinquencies, prepayments, budget
                                          projections, program changes, and so
                                          on. There also needs to be a more
                                          robust form of vintage analysis (by
                                          year of origination) to track and
                                          analyze the portfolio characteristics
                                          and performance in all areas. As part
                                          of the vintage analysis, the
                                          percentage of customers utilizing the
                                          negative amortization option and the
                                          percentage of the portfolio in a
                                          negative amortization position should
                                          be identified at least quarterly.
                                        • Ensure that the following areas of
                                          the interagency guidance on
                                          nontraditional mortgage product
                                          (NMP) risks are implemented no later
                                          than March 31, 2007:
                                          (1) methodology for stress testing the
                                          option ARM portfolio; (2) revised
                                          allowance for loan and lease losses
                                          (ALLL) methodology and policy to
                                          account for specific levels of risk
                                          identifiable in the option ARM
                                          portfolio; (3) consideration in the
                                          repayment analysis, when applicable,
                                          any balance increase that may accrue
                                          from the loan’s negative amortization
                                          feature; (4) explanation of what
                                          factors other than credit score are
                                          considered when assessing the
                                          borrower’s repayment capacity on
                                          the DocEase loan program; and
                                          (5) development and adoption of
                                          written policies that specify



                Material Loss Review of BankUnited, FSB (OIG-10-042)                        Page 53
                Appendix 5
                OTS Examinations and Enforcement Actions




                                        Significant safety and soundness
                                        matters requiring board attention and
                                        other corrective actions and
Date                        Assets      recommendations cited in reports of           Informal/formal
examination     CAMELS      (in         examinations and limited examination          enforcement
started/ended   rating      billions)   reports                                       action
                                            production and portfolio limits. Some
                                            items to consider within the portfolio
                                            limits are geographic concentrations,
                                            option ARM types (e.g., stated
                                            income/stated assets, no income/no
                                            asset verification), and (c) Fair Isaac
                                            Corporation (FICO) scores.
                                        •   Assign one person responsibility for
                                            coordinating the review of
                                            compliance with transactions with
                                            affiliates regulations. This review
                                            should be completed on a regular
                                            schedule every year or when
                                            considering new material affiliated
                                            transactions.
                                        •   Provide assurances by the audit
                                            committee that management’s
                                            analysis of compliance with
                                            transactions with affiliates
                                            regulations has considered not only
                                            whether a transaction is at market
                                            terms, but also whether the particular
                                            arrangement is reasonable and makes
                                            business sense from the bank’s
                                            perspective.
                                        •   Establish a timeline for upgrading the
                                            interest rate risk function with
                                            sufficient staffing and modeling tools
                                            to more fully address all the
                                            requirements of Thrift Bulletin 13a for
                                            complex institutions.
                                        •   Establish a back-testing regime for
                                            the option ARMs. This should include
                                            back testing estimates, comparing
                                            effective duration estimates to large
                                            dealer estimates and including default
                                            estimates if appropriate.
                                        •   Look critically at the staffing and
                                            turnover in the BSA department since
                                            the preceding examination. This



                Material Loss Review of BankUnited, FSB (OIG-10-042)                         Page 54
                Appendix 5
                OTS Examinations and Enforcement Actions




                                        Significant safety and soundness
                                        matters requiring board attention and
                                        other corrective actions and
Date                        Assets      recommendations cited in reports of           Informal/formal
examination     CAMELS      (in         examinations and limited examination          enforcement
started/ended   rating      billions)   reports                                       action
                                            review should be documented in the
                                            board minutes.
                                        •   Consider developing an electronic
                                            spreadsheet on wire transfers that
                                            would include at least the names,
                                            addresses, and phone numbers of
                                            senders and beneficiaries and the
                                            names of banks sending or receiving
                                            the wires. The BSA department
                                            should then sort and analyze this
                                            information periodically to determine
                                            if there are any unusual patterns that
                                            might require further inquiry, up to
                                            potentially filing a SAR.
                                        •   Review the accounts associated with
                                            all federal grand jury and law
                                            enforcement subpoenas in a timelier
                                            manner. Include timeframe
                                            requirements for completing these
                                            reviews in the BSA policies and
                                            present the status of these reviews,
                                            including some form of aging report,
                                            at each BSA committee meeting.
                                        •   Establish parameters for clearing
                                            exceptions highlighted by the ASSIST
                                            system and include an aging report
                                            for uncleared exceptions that is
                                            provided to the BSA committee.
                                        •   Expand the periodic statistical
                                            analysis of Home Mortgage
                                            Disclosure Act lending activity to help
                                            detect unrecognized disparities.
                                        •   Enhance the fair lending transactional
                                            reviews by targeting areas of risk and
                                            incorporate the guidance provided in
                                            the Federal Financial Institutions
                                            Examination Council Fair Lending
                                            Examination Procedures.
                                        •   Monitor broker compensation to help
                                            detect disparities in loan pricing on



                Material Loss Review of BankUnited, FSB (OIG-10-042)                         Page 55
                Appendix 5
                OTS Examinations and Enforcement Actions




                                        Significant safety and soundness
                                        matters requiring board attention and
                                        other corrective actions and
Date                        Assets      recommendations cited in reports of          Informal/formal
examination     CAMELS      (in         examinations and limited examination         enforcement
started/ended   rating      billions)   reports                                      action
                                           prohibited bases.
                                        • Conduct a risk assessment of
                                           BankUnited’s activity in alternative
                                           mortgage products and adopt best
                                           practices for consumer protection to
                                           the extent that management has not
                                           already done so.
5/21/2007       2/222222    N/A         The limited examination assessed             None
7/25/2007                               management’s efforts to achieve
                                        compliance with current interagency
(Limited                                guidance on nontraditional mortgage
examination)                            product risks and other corrective
                                        actions noted at the last examination
                                        related to nontraditional mortgage
                                        products. There was also a review of
                                        asset quality ratios and trends to assess
                                        the appropriateness of the current asset
                                        quality component rating. Based on
                                        OTS’s findings, BankUnited’s asset
                                        quality rating was downgraded from 1
                                        to 2.

                                        Recommendations

                                        •   Consider recommending that the
                                            board revise the current limits
                                            (includes the following loan types:
                                            stated income verified assets, other
                                            low doc types, second homes,
                                            investor properties, credit score 660-
                                            699, credit score 621-659, and total
                                            debt ratio 48 percent or above) to
                                            include limits on combinations of
                                            credit attributes (layered risks)
                                            similar to the product matrix, or
                                            limits that are based not only on
                                            outstanding balances but also on
                                            periodic origination levels.
                                        •   Ensure that the ALLL calculation
                                            methodology and policy are
                                            consistent with the interagency
                                            guidance. A segregation of



                Material Loss Review of BankUnited, FSB (OIG-10-042)                        Page 56
                Appendix 5
                OTS Examinations and Enforcement Actions




                                        Significant safety and soundness
                                        matters requiring board attention and
                                        other corrective actions and
Date                        Assets      recommendations cited in reports of           Informal/formal
examination     CAMELS      (in         examinations and limited examination          enforcement
started/ended   rating      billions)   reports                                       action
                                            nontraditional mortgage products
                                            into pools with similar characteristics
                                            must be incorporated into the
                                            analysis to achieve an appropriate
                                            methodology.
12/10/2007      N/A         N/A         The limited examination assessed              None
12/14/2007                              compliance with outstanding issues
                                        noted during OTS’s May 2007 field
(Limited                                visit, where were related to the
examination)                            interagency guidance on nontraditional
                                        mortgage products risks. OTS also
                                        conducted a limited review of asset
                                        quality trends, with particular emphasis
                                        on the performance of the nontraditional
                                        residential loan portfolio. The limited
                                        examination concluded that
                                        management took appropriate steps to
                                        address the unresolved issues from the
                                        May 2007 field visit related to
                                        nontraditional mortgage products. OTS
                                        also noted that the level of problem
                                        residential loans continued to increase
                                        rapidly, with no indication that the trend
                                        would begin to subside.
1/31/2008       4/443442    $14.3       Matters requiring board attention             None
7/11/2008                               • Assess the overall capital level as
                                           compared to the risk profile of
Full scope                                 BankUnited, including the status of
examination                                any capital-raising efforts by the
                                           holding company, given the
                                           increasing levels of delinquent option
                                           ARMs and the average losses on the
                                           sales of real estate owned (REO). The
                                           board’s review of these matters at
                                           each regular board meeting must be
                                           fully detailed in the board meeting
                                           minutes.
                                        • Reevaluate the appropriateness of the
                                           level of the ALLL and the
                                           methodology used to ensure that



                Material Loss Review of BankUnited, FSB (OIG-10-042)                         Page 57
                Appendix 5
                OTS Examinations and Enforcement Actions




                                        Significant safety and soundness
                                        matters requiring board attention and
                                        other corrective actions and
Date                        Assets      recommendations cited in reports of           Informal/formal
examination     CAMELS      (in         examinations and limited examination          enforcement
started/ended   rating      billions)   reports                                       action
                                            sufficient loss reserves have been
                                            established.
                                        •   Validate the ALLL methodology
                                            periodically. This validation process
                                            should include procedures for a
                                            review, by a party independent of the
                                            institution’s credit approval and ALLL
                                            estimation processes, of the ALLL
                                            methodology and its application in
                                            order to confirm its effectiveness. A
                                            specific timeframe for validating the
                                            ALLL should be established.
                                        •   Document fully why the loss reserve
                                            calculated for loans that are
                                            nonaccrual but are less than 180
                                            days delinquent is not used for loans
                                            that are more than 180 days
                                            delinquent, particularly when there
                                            are substantial differences between
                                            the two loss reserves. Management
                                            should consider using the loss rate
                                            determined for the loans that are
                                            nonaccrual but are less than 180
                                            days delinquent.
                                        •   Adjust the cure rate calculation, since
                                            it appears to greatly overestimate the
                                            cure rate, which is presently at 28
                                            percent. Consider obtaining data on
                                            the loans more than 180 days
                                            delinquent and on loans that are
                                            nonaccrual but not more than 180
                                            days delinquent and determining
                                            what the actual historical cure rate
                                            has been on these two types of
                                            delinquencies. These historical cure
                                            rates can then be compared with the
                                            cure rate being used in the ALLL
                                            methodology.
                                        •   Use the calculated loss rate against
                                            the additional loans that are projected



                Material Loss Review of BankUnited, FSB (OIG-10-042)                         Page 58
                Appendix 5
                OTS Examinations and Enforcement Actions




                                        Significant safety and soundness
                                        matters requiring board attention and
                                        other corrective actions and
Date                        Assets      recommendations cited in reports of          Informal/formal
examination     CAMELS      (in         examinations and limited examination         enforcement
started/ended   rating      billions)   reports                                      action
                                            to be on nonaccrual or worse at least
                                            6 months in the future when
                                            calculating the loss reserves on
                                            residential loans.
                                        •   Perform a formal comparison of in-
                                            house evaluations to the actual
                                            appraisals subsequently obtained for
                                            properties that go into REO to assess
                                            the reliability of the in-house
                                            evaluations; adjust for material
                                            variance if required.
                                        •   Document and fully address items in
                                            the section on the ALLL in the asset
                                            quality section of this report.
                                        •   Prepare a detailed, written plan with
                                            reasonable and appropriate
                                            timeframes and reporting
                                            requirements to prudently and
                                            diligently reduce the level of
                                            negatively amortizing loans.
                                        •   Classify loans modified with letter
                                            agreements as substandard.
                                        •   Review the modified loan portfolio
                                            from July 1, 2007, forward and, in
                                            conjunction with advice and review
                                            by the independent auditors, make a
                                            written determination whether these
                                            modifications should be accounted
                                            for and reported as troubled debt
                                            restructurings.
                                        •   Review the loss mitigation
                                            department’s work to ensure that all
                                            potential significant suspicious
                                            activity has been fully identified and
                                            file any necessary SARs. This review
                                            should be documented and presented
                                            to senior management.
                                        •   Analyze the depth, structure, and
                                            functions of the accounting and
                                            finance areas. This review should



                Material Loss Review of BankUnited, FSB (OIG-10-042)                        Page 59
                Appendix 5
                OTS Examinations and Enforcement Actions




                                        Significant safety and soundness
                                        matters requiring board attention and
                                        other corrective actions and
Date                        Assets      recommendations cited in reports of         Informal/formal
examination     CAMELS      (in         examinations and limited examination        enforcement
started/ended   rating      billions)   reports                                     action
                                          include day-to-day management of
                                          these areas, the high-level needs of
                                          the bank and holding company with
                                          respect to these areas, and
                                          consideration for planning for the
                                          increasing complexity in these areas
                                          as nonperforming assets increase.
                                        • Prepare a comprehensive business
                                          plan covering the last 6 months of
                                          calendar year 2008 and all of
                                          calendar years 2009 and 2010.
                                          Include a detailed description of
                                          BankUnited’s plans to improve
                                          earnings, preserve and enhance
                                          capital, and strengthen liquidity.
                                          Include quarterly financial projections
                                          and identify all relevant assumptions.
                                        • Review the overall liquidity position
                                          and prepare a written report that
                                          considers new strategies and means
                                          for improving and strengthening the
                                          overall liquidity position.
                                        • Review and monitor the bank’s credit
                                          availability and outstanding
                                          borrowings, and consider alternative
                                          plans should collateral requirements
                                          increase and/or credit availability
                                          decrease.

                                        Other corrective actions
                                        • Ensure that corrections are made to
                                          Schedule Compliance Capital Ratios)
                                          no later than the filing of the June
                                          30, 2008, thrift financial report
                                          (TFR).
                                        • Address the issue of improving the
                                          timeliness of the final ALLL analysis.
                                        • Enhance the reporting/analysis area
                                          related to measuring multiple layered
                                          risks (i.e., loan-to-value/FICO/



                Material Loss Review of BankUnited, FSB (OIG-10-042)                       Page 60
                Appendix 5
                OTS Examinations and Enforcement Actions




                                        Significant safety and soundness
                                        matters requiring board attention and
                                        other corrective actions and
Date                        Assets      recommendations cited in reports of           Informal/formal
examination     CAMELS      (in         examinations and limited examination          enforcement
started/ended   rating      billions)   reports                                       action
                                            mortgage insurance) and performing
                                            migration analysis on the portfolio by
                                            refreshing credit scores and collateral
                                            valuations (asset valuation models or
                                            applying home pricing index
                                            adjustments).
                                        •    Include a more detailed assessment
                                            of recast dates and stress testing
                                            recast projections in option ARM
                                            reporting. Separately report the
                                            interest-only loans, using the style of
                                            analytical reports prepared by another
                                            bank area. Items to include are
                                            payment shock and recast dates, as
                                            well as portfolio characteristics and
                                            payment analysis.
                                        •   Develop and implement enhanced
                                            operating procedures for short sales,
                                            letter agreements, and other key
                                            areas within the specialty
                                            assets/default administration
                                            department.
                                        •   Develop and implement operating
                                            procedures for the loan retention
                                            program.
                                        •   Formalize the customer outreach
                                            programs that are in the process of
                                            being implemented to address the
                                            recast risk.
                                        •   Review loss mitigation strategies to
                                            ensure that loans are accounted for
                                            properly, with particular emphasis on
                                            troubled debt restructuring
                                            accounting, fair value calculations,
                                            recorded investment, writing off
                                            broker premiums, and nonaccrual
                                            issues.
                                        •   Incorporate a procedure to ensure
                                            that loans in active foreclosure
                                            receive periodic valuation updates.



                Material Loss Review of BankUnited, FSB (OIG-10-042)                         Page 61
                Appendix 5
                OTS Examinations and Enforcement Actions




                                        Significant safety and soundness
                                        matters requiring board attention and
                                        other corrective actions and
Date                        Assets      recommendations cited in reports of            Informal/formal
examination     CAMELS      (in         examinations and limited examination           enforcement
started/ended   rating      billions)   reports                                        action
                                            These updates should be used to
                                            establish fair value for the appropriate
                                            accounting methodologies.
                                        •   Ensure that before transferring loan
                                            balances to REO that unpaid escrow
                                            and corporate advances are expensed
                                            and not capitalized.
                                        •   Enhance reports on unpaid mortgage
                                            insurance claims to include the
                                            likelihood of collecting claims,
                                            curtailment, denial ratios, and overall
                                            exposure (e.g., REO, active
                                            foreclosure, short sales).
                                        •   Initiate ongoing BSA/SAR training for
                                            the loss mitigation department.
                                        •   Have an independent group sample
                                            Loss Mitigation Department activity
                                            after BSA training has been provided
                                            to ensure that appropriate
                                            identification, documentation, and
                                            investigation of suspicious activity
                                            are being conducted.
                                        •   Have the compliance department
                                            review the notes and borrower
                                            disclosures for modified loans and
                                            ensure that they are consistent and
                                            sufficiently clear so that borrowers
                                            understand when their loans will
                                            recast. The results of this review
                                            should be provided to the board.
                                        •   Monitor short sale and deficiency
                                            note statistics by race and ethnicity
                                            to ensure that protected groups do
                                            not receive disparate treatment.
                                            Should the statistical review indicate
                                            a potential disparity on a prohibited
                                            basis, a transactional review should
                                            be conducted to determine if the
                                            bank is following its written
                                            nondiscriminatory guidelines for



                Material Loss Review of BankUnited, FSB (OIG-10-042)                          Page 62
                Appendix 5
                OTS Examinations and Enforcement Actions




                                        Significant safety and soundness
                                        matters requiring board attention and
                                        other corrective actions and
Date                        Assets      recommendations cited in reports of          Informal/formal
examination     CAMELS      (in         examinations and limited examination         enforcement
started/ended   rating      billions)   reports                                      action
                                          eligibility and treatment under these
                                          programs.
                                        • Review the various options available
                                          for a more advanced and efficient
                                          anti-money laundering monitoring
                                          system, such as a rules-based
                                          system, and establish implementation
                                          goals for the system. These goals
                                          should be completed within 90 days
                                          of receipt of this report.
                                        • Consider the options available for a
                                          more advanced or automated anti-
                                          money laundering monitoring system
                                          for wire transfers. Document this
                                          analysis within 90 days of receipt of
                                          this report.
                                        • Consider options to upgrade the
                                          bank’s customer risk-rating process.
                                          Select an option and prepare a
                                          timetable for its implementation
                                          within 90 days of receipt of this
                                          report.

6/30/2008       3/343432    N/A            OTS revised the CAMELS ratings            Memoranda of
6/30/2008                                  assigned to BankUnited as a result of     understanding
                                           the ongoing OTS examination, which        (informal)
(Notice of                                 began in early 2008. BankUnited’s         issued on
rating                                     CAMELS composite rating is adjusted       7/24/2008 to
downgrades)                                to 3 based on the deterioration in the    BankUnited
                                           bank’s asset quality and earnings and     and BFC
                                           concerns regarding the adequacy of
                                           capital and liquidity if adverse trends
                                           continue or accelerate. Component
                                           ratings for asset quality and earnings
                                           are downgraded to 4, and component
                                           ratings for capital, management, and
                                           liquidity are downgraded to 3.
8/11/2008       4/443442    N/A            OTS reviewed BankUnited’s written         None
9/03/2008                                  submissions, information regarding
                                           changes in the thrift’s condition since



                Material Loss Review of BankUnited, FSB (OIG-10-042)                        Page 63
                    Appendix 5
                    OTS Examinations and Enforcement Actions




                                                 Significant safety and soundness
                                                 matters requiring board attention and
                                                 other corrective actions and
Date                              Assets         recommendations cited in reports of            Informal/formal
examination        CAMELS         (in            examinations and limited examination           enforcement
started/ended      rating         billions)      reports                                        action
(Limited                                            July 24, 2008, and other
examination)                                        information. As a result of this review
                                                    and analysis, OTS confirmed that
                                                    BankUnited was in an unsafe and
                                                    unsound condition for the reasons
                                                    outlined in the July 24, 2008, letter
                                                    and this report of examination.
                                                    Therefore, effective September 5,
                                                    2008 OTS reclassified BankUnited’s
                                                    capital category from well-capitalized
                                                    to adequately capitalized, pursuant to
                                                    12 C.F.R. § 565.4(c).

9/04/2008          5/554554       N/A               OTS revised BankUnited’s CAMELS             Cease and
12/18/2008                                          ratings because of continuing and           desist orders
                                                    significant deterioration in the thrift’s   issued on
(Notice of                                          asset quality and earnings, and the         9/19/2008 to
rating                                              resultant impact on its capital             BankUnited
downgrades)                                                                                     and BFC
                                                    position. BankUnited’s composite
                                                    CAMELS rating is adjusted to 5.
                                                    Component ratings for asset quality,        Prompt
                                                    earnings, liquidity, and capital are        corrective
                                                    downgraded to 5, and the ratings for        action directive
                                                    management and sensitivity are              executed on
                                                    downgraded to 4.                            4/14/2009
                                                                                                between OTS
                                                                                                and
                                                                                                BankUnited
Source: OIG analysis of OTS reports of examination and enforcement actions.




                    Material Loss Review of BankUnited, FSB (OIG-10-042)                               Page 64
                     Appendix 6
                     Prior OIG Material Loss Review Recommendations




Our material loss review of BankUnited is the tenth such review performed since
September 2007 of a failed institution regulated by the Office of Thrift Supervision
(OTS). This appendix provides recommendations made to OTS resulting from these
reviews. OTS management concurred with the recommendations and has taken or
planned corrective actions that are responsive to the recommendations. In certain
instances, the recommendations address matters that require ongoing OTS
management and examiner attention.

 Report Title                                       Recommendations to OTS Director
 Safety and Soundness: Material Loss Review of      Ensure that the recommendations/lessons
 NetBank, FSB, OIG-08-032 (Apr. 23, 2008)           learned from OTS’s internal assessments of the
                                                    NetBank failure, as described on pages 21 and
 OTS closed NetBank and appointed the Federal       28 of that report, are implemented.
 Deposit Insurance Corporation (FDIC) as receiver
 on September 28, 2007. At that time, FDIC          Re-emphasize to examiners that for 3-rated
 estimated that NetBank’s failure would cost the    thrifts, formal enforcement action is presumed
 Deposit Insurance Fund $108 million.               warranted when certain circumstances identified
                                                    in the OTS Examination Handbook are met.
                                                    Examiners are also directed to document in the
                                                    examination files the reason for not taking
                                                    formal enforcement action in those
                                                    circumstances.

                                                    Establish in policy a process to assess the
                                                    causes of thrift failures and the supervision
                                                    exercised over the institution and to take
                                                    appropriate action to address any significant
                                                    supervisory weaknesses or concerns identified.

 Safety and Soundness: Material Loss Review of      Ensure that action is taken on the lessons
 IndyMac Bank, FSB, OIG-09-032 (Feb. 26,            learned and recommendations from the OTS
 2009)                                              internal review of the IndyMac failure.

 OTS closed IndyMac on July 11, 2008, and           Caution examiners that assigning composite
 named FDIC as conservator. As of May 8, 2009,      CAMELS ratings of 1 or 2 to thrifts with high-
 FDIC estimated that IndyMac’s failure would        risk, aggressive-growth business strategies
 cost the Deposit Insurance Fund $10.7 billion.     needs to be supported with compelling, verified
                                                    mitigating factors. Such mitigating factors
                                                    should consider things such as the institution’s
                                                    corporate governance, risk management
                                                    controls, allowance for loan and lease losses
                                                    methodologies, concentration limits, funding
                                                    sources, underwriting standards, and capital
                                                    levels and whether the mitigating factors are
                                                    likely to be sustainable in the long-term. Another
                                                    important factor that should be considered is the
                                                    extent to which the thrift offers nontraditional
                                                    loan products (regardless of whether loans are



                     Material Loss Review of BankUnited, FSB (OIG-10-042)                       Page 65
                    Appendix 6
                    Prior OIG Material Loss Review Recommendations




                                                   sold or retained) that have not been stress-
                                                   tested in difficult financial environments and
                                                   whether the thrift can adequately manage the
                                                   risks associated with such products. OTS should
                                                   re-examine and refine as appropriate its guidance
                                                   in this area.

Safety and Soundness: Material Loss Review of      Remind examiners of the risks associated with
Ameribank, Inc., OIG-09-036 (Apr. 7, 2009)         rapid growth in high-risk concentrations.

OTS closed Ameribank and appointed FDIC as         Remind examiners to conduct more thorough
receiver on September 19, 2008. As of              loan sampling from the portfolio if they identify a
December 31, 2008, FDIC estimated that             rapid increase in concentration.
Ameribank’s failure would cost the Deposit
Insurance Fund $33.4 million.                      Remind examiners of the examination guidance
                                                   for thrift third-party relationships, with particular
                                                   attention to the assessment of the risk the
                                                   relationship may pose to the thrift’s safety and
                                                   soundness.

                                                   Assess the need for guidance requiring risk
                                                   assessment of construction rehabilitation
                                                   account loans as an integral part of assessing
                                                   the thrift’s overall risk.

                                                   Ensure that the recommendations and the
                                                   lessons learned from OTS’s internal assessment
                                                   of the Ameribank failure are implemented.

Safety and Soundness: Material Loss Review of      Ensure that the recommendations from OTS’s
PFF Bank and Trust, OIG-09-038 (June 12,           internal assessment of the PFF failure are
2009)                                              implemented and that the lessons learned from
                                                   the assessment are taken into account going
OTS closed PFF and appointed FDIC as receiver      forward. In this regard, OTS should do the
on November 21, 2008. As of May 8, 2009,           following:
FDIC estimated that PFF’s failure would cost the
Deposit Insurance Fund $729.6 million.             Direct examiners to closely review and monitor
                                                   thrifts that refuse to establish appropriate limits
                                                   of concentrations that pose significant risk and
                                                   pursue corrective action when concentration
                                                   limits are not reasonable.

                                                   Formally communicate the guidance in ND
                                                   Bulletin 06-14 as to OTS’s expectation that
                                                   concentration measurements and limits be set as
                                                   a percentage of capital, not just as a percentage
                                                   of total assets or loans.

                                                   Formally communicate the need for a sound



                    Material Loss Review of BankUnited, FSB (OIG-10-042)                           Page 66
                    Appendix 6
                    Prior OIG Material Loss Review Recommendations




                                                   internal risk management system that includes
                                                   stress testing, regular periodic monitoring, and
                                                   other risk management tools for higher-risk
                                                   concentrations.
Safety and Soundness: Material Loss Review of      Ensure that the recommendations from OTS’s
Downey Savings and Loan, FA, OIG-09-039            internal assessment of the Downey failure are
(June 15, 2009)                                    implemented and that the lessons learned from
                                                   the assessment are taken into account going
OTS closed Downey and appointed FDIC as            forward. In this regard, OTS should do the
receiver on November 21, 2008. As of May 8,        following:
2009, FDIC estimated that Downey’s failure
would cost the Deposit Insurance Fund $1.4         Direct examiners to closely review and monitor
billion.                                           thrifts that refuse to establish appropriate limits
                                                   of concentrations that pose significant risk and
                                                   pursue corrective action when concentration
                                                   limits are not reasonable.

                                                   Assess the need for more guidance for
                                                   examiners on determining materiality of
                                                   concentrations and determining appropriate
                                                   examiner response to high-risk concentrations,
                                                   including when to impose absolute limits to
                                                   prevent excessive concentration

                                                   Formally communicate the need for a sound
                                                   internal risk management system that includes
                                                   stress testing, regular periodic monitoring, and
                                                   other risk management tools for higher-risk
                                                   concentrations.

                                                   Formally communicate the guidance in ND 06-14
                                                   as to OTS’s expectation that concentration
                                                   measurements and limits be set as a percentage
                                                   of capital, not just as a percentage of assets or
                                                   loans.
Safety and Soundness: Material Loss Review of      Ensure that the recommendations from OTS’s
Suburban Federal Savings Bank, OIG-09-047          internal assessment of the Suburban failure are
(Sept. 11, 2009)                                   implemented and that the lessons learned from
                                                   the assessments are taken into account going
OTS closed Suburban and appointed FDIC as          forward.
receiver on January 30, 2009. As of August 14,
2009, FDIC estimated that Suburban’s failure       Ensure that regional offices more closely monitor
would cost the Deposit Insurance Fund $126         and scrutinize the amendments to thrift financial
million.                                           reports made by institutions for accuracy and
                                                   consider appropriate action where chronic errors
                                                   are found, including enforcement action and
                                                   assessment of civil money penalties.

                                                   Have regional offices ensure that examiners



                    Material Loss Review of BankUnited, FSB (OIG-10-042)                         Page 67
                     Appendix 6
                     Prior OIG Material Loss Review Recommendations




                                                    conduct timely and adequately scoped field
                                                    visits to determine whether thrifts with repeat
                                                    problems have taken appropriate corrective
                                                    action. In the event that the field visits find that
                                                    corrective action has not been taken, examiners
                                                    should be instructed to elevate the supervisory
                                                    response, including the taking of enforcement
                                                    action when necessary.
Safety and Soundness: Material Loss Review of       Ensure that action is taken on its internal failed
American Sterling Bank, OIG-10-011 (Nov. 25,        bank review of American Sterling Bank.
2009)
                                                    Remind supervisory and examination staff of the
OTS closed American Sterling and appointed          importance of requiring thrifts to hold capital to
FDIC as receiver on April 17, 2009. As of           mitigate their recourse exposure on sold loans.
October 31, 2009, FDIC estimated that
American Sterling’s failure would cost the          Remind supervisory and examination staff to
Deposit Insurance Fund $41.9 million. FDIC          scrutinize capital contributions made to thrifts
also estimated a loss to the Transaction            especially noncash capital contributions.
Account Guarantee Program of $0.2 million.
                                                    Ensure examiners take forceful action to mitigate
                                                    losses whenever a thrift’s line of business incurs
                                                    losses that threaten the viability of the
                                                    institution.

Safety and Soundness: Material Loss Review of       Ensure that examination staff sufficiently
First Bank of Idaho, OIG-10-036 (February 16,       considers a thrift’s risk profile when deciding
2010)                                               whether to allow a thrift to lower its internal
                                                    capital targets and when determining the thrift’s
OTS closed First Bank of Idaho and appointed        CAMELS ratings.
FDIC as receiver on April 24, 2009. As of
December 31, 2009, FDIC estimated that First
Bank of Idaho’s failure would cost the Deposit
Insurance Fund $174.6 million. FDIC also
estimated a loss to the Transaction Account
Guarantee Program of $4.7 million.
Safety and Soundness: Material Loss Review of       Ensure that action is taken on the lessons
Peoples Community Bank, OIG-10-040 (May 27,         learned and that the recommendations made
2010) (Review performed by Mayer Hoffman            from OTS’s internal review as documented in the
McCann P.C., an independent certified public        Internal Failed Bank Review for PCB’s that was
accounting firm, under the supervision of the       issued December 30, 2009 are implemented;
Treasury Office of Inspector General)
                                                    Work with its regulatory partners to determine
OTS closed Peoples Community Bank and               whether to propose legislation and/or change
appointed FDIC as receiver on July 31, 2009.        regulatory guidance to establish limits or other
As of April 16, 2010, FDIC estimated that First     controls for concentrations that pose an
Bank of Idaho’s failure would cost the Deposit      unacceptable safety and soundness risk and
Insurance Fund $136 million.                        determine an appropriate range of examiner
                                                    response to high risk concentrations.




                     Material Loss Review of BankUnited, FSB (OIG-10-042)                          Page 68
Appendix 7
Management Response




Material Loss Review of BankUnited, FSB (OIG-10-042)   Page 69
Appendix 7
Management Response




Material Loss Review of BankUnited, FSB (OIG-10-042)   Page 70
Appendix 8
Major Contributors to This Report




Susan Barron, Audit Director
Lisa DeAngelis, Audit Manager
Amni Samson, Auditor-in-Charge
Sabrina Diggs, Auditor
Michael R. Shiely, Auditor
Kenneth Harness, Referencer




Material Loss Review of BankUnited, FSB (OIG-10-042)   Page 71
Appendix 9
Report Distribution




Department of the Treasury

    Deputy Secretary of the Treasury
    Office of Strategic Planning and Performance Management
    Office of Accounting and Internal Control

Office of Thrift Supervision

    Acting Director
    Liaison Officer

Office of Management and Budget

    OIG Budget Examiner

United States Senate

    Chairman and Ranking Member
    Committee on Banking, Housing, and Urban Affairs

    Chairman and Ranking Member
    Committee on Finance

U.S. House of Representatives

    Chairman and Ranking Member
    Committee on Financial Services

Federal Deposit Insurance Corporation

    Chairman
    Inspector General

U.S. Government Accountability Office

    Acting Comptroller General of the United States




Material Loss Review of BankUnited, FSB (OIG-10-042)      Page 72
